      Department of Homeland Security




       Independent Auditors' Report on DHS' FY 2012 

       Financial Statements and Internal Control over 

                      Financial Reporting 





OIG-13-20                                     November 2012

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                               Washington, DC 20528 / www.oig.dhs.gov

                                          November 14, 2012


MEMORANDUM FOR:               The Honorable Janet Napolitano

                                                              ~                  df         r-   ~

                                                                              <
                              Secretary

FROM:                         Charles K. Edwards                                ~
                              Acting Inspector General                  ,V)


SUBJECT:                      Independent Auditors' Report on DHS' FY 2012 Financial
                              Statements and Internal Control over Financial Reporting

The attached report presents the results of the u.s. Department of Homeland Security's
(DHS) financial statements audit for fiscal year (FY) 2012 and the results of an
examination of internal control over financial reporting of those financial statements.
These are mandatory audits required by the Chief Financial Officers Act of 1990, as
amended by the Department of Homeland Security Financial Accountability Act of 2004.
This report is incorporated in the Department's FY 2012 Annual Financial Report. We
contracted with the independent public accounting firm KPMG LLP (KPMG) to perform
the integrated audit.

The Department continued to improve financial management in FY 2012 and has
achieved a significant milestone. This is the first year the Department has completed a
full scope audit on all financial statements. The independent auditors issued a qualified
opinion on the financial statements. Nevertheless, the Department still has work to do
to meet the goal of becoming fully auditable in FY 2013. KPMG was unable to perform
procedures necessary to form an opinion on DHS' internal control over financial
reporting ofthe FY 2012 financial statements. Further, as stated in the Secretary's
Assurance Statement, the Department has material weaknesses in internal control over
financial reporting. In order to sustain or improve upon the qualified opinion, the
Department must continue remediating the remaining control deficiencies.

                                          Summary

KPMG expressed a qualified opinion on the Department's balance sheet as of
September 30, 2012, and the related statements of net cost, changes in net position,
and custodial activity, and combined statement of budgetary resources for the year
then ended (referred to as the "fiscal year (FY) 2012 financial statements"). DHS was
unable to represent that property, plant, and equipment (PP&E) account balances were
correct and was unable to provide sufficient evidence to support these balances in the
financial statements. Additionally, as stated in the Secretary's Assurance Statement, the
Department has material weaknesses in internal control over financial reporting, thus
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


KPMG was unable to opine on DHS' internal control over financial reporting of the
financial statements as of September 30, 2012.

The report discusses eight significant deficiencies in internal control, five of which are
considered material weaknesses, and four instances of noncompliance with laws and
regulations, as follows:

       Significant Deficiencies That Are Considered To Be Material Weaknesses


       •   Financial Reporting
       •   Information Technology Controls and Financial System Functionality
       •   Property, Plant, and Equipment
       •   Environmental and Other Liabilities
       •   Budgetary Accounting


                                  Other Significant Deficiencies


       •   Entity-Level Controls
       •   Grants Management
       •   Custodial Revenue and Drawback

                       Non-compliance with Laws and Regulations


       •   Federal Managers' Financial Integrity Act of 1982 (FMFIA),
       •   Federal Financial Management Improvement Act of 1996 (FFMIA)
       •   Single Audit Act Amendments of 1996
       •   Anti-deficiency Act (ADA)

                      Moving DHS' Financial Management Forward

Although the Department continued to remediate material weaknesses and reduce the
number of conditions contributing to the material weaknesses, all five material
weakness conditions identified in FY 2011 were repeated in FY 2012. DHS made some
progress in remediating two of the material weaknesses. Specifically, USCG properly
stated environmental liability balances, which resulted in the auditors retroactively
removing the qualification related to this area in FY 2011. Also USCG was able to
remediate a number of internal control weakness related to IT scripting, and continues
to make progress in PP&E with the goal of being able to assert to the entire PP&E
balance by January 2013. In previous years, the DHS Secretary has issued a statement of
no assurance on the Department's internal controls over financial reporting. However,
in FY 2012 the Department provided qualified assurance that internal control over


                                              2
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


financial reporting was operating effectively at September 30, 2012, and acknowledges
that material weaknesses continue to exist in key financial processes. Consequently, the
independent auditors were unable to render an opinion on DHS' internal controls over
financial reporting in FY 2012.

While the Department continues to make progress, there are also some concerns that
should be addressed in 2013, to avoid losing momentum, and slipping backwards. The
Department must continue remediation efforts, and stay focused, in order to achieve its
goal of a full clean opinion in 2013. The goal is in reach, and is achievable in 2013.



                                         *****

KPMG is responsible for the attached Independent Auditors' Report dated
November 14, 2012, and the conclusions expressed in the report. We do not express
opinions on financial statements or internal control or conclusions on compliance with
laws and regulations.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of this report to appropriate congressional committees with oversight and
appropriation responsibilities over the Department. In addition, we will post a copy of
the report on our public website.

We request that the Office ofthe Chief Financial Officer provide us with a corrective
action plan that demonstrates progress in addressing the report's recommendations.

We appreciate the cooperation extended to the auditors by the Department's financial
offices. Should you have any questions, please call me, or your staff may contact
Anne L. Richards, Assistant Inspector General for Audits, at 202-254-4100.

Attachment




                                            3
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


                     Excerpts from the DHS Annual Financial Report 
    
   Table of Contents  
    
   Independent Auditors’ Report............................................................................................
                                                                                                                                       1
 
    
   Introduction to Exhibits on Internal Control and Compliance and
  
   Other Matters  ...................................................................................................................i.1

                                                                                                                                        
    
   Exhibit I – Material Weaknesses in Internal Control ........................................................ I.1
 
    
   Exhibit II – Significant Deficiencies...................................................................................
                                                                                                                                    II.1
 
    
   Exhibit III – Compliance and Other Matters ................................................................... III.1
 
    
   Exhibit IV – Status of Prior Year Findings........................................................................
                                                                                                                                   IV.1
 
    
   Criteria – Index of Financial Reporting and Internal Control Criteria........................Index.1

                                                                                                                                          
            
    
   Appendixes  
    
              Appendix A:    Report Distribution .......................................................................... 2
 
               
    
               
    




www.oig.dhs.gov                                                                                                                 OIG-13-20
                                      KPMG LLP
                                      Suite 12000
                                      1801 K Street, NW
                                      Washington, DC 20006




                                             Independent Auditors’ Report


Secretary and Inspector General
U.S. Department of Homeland Security:
We have audited the accompanying balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2012, and the related statements of net cost, changes in net position, and custodial
activity, and combined statement of budgetary resources for the year then ended (referred to as the “fiscal year (FY)
2012 financial statements”). We have also audited the accompanying balance sheet of DHS as of September 30,
2011, and the related statement of custodial activity for the year then ended (referred to as the “FY 2011 financial
statements”). We were also engaged to audit the Department’s internal control over financial reporting of the FY
2012 financial statements. The objective of our audits was to express an opinion on the fair presentation of the FY
2012 and 2011 financial statements (referred to as the financial statements), and the effectiveness of internal control
over financial reporting of the FY 2012 financial statements.
In connection with our audit, we tested DHS’s compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements that could have a direct and material effect on the FY 2012 financial statements.
We were not engaged to audit the accompanying statements of net cost, changes in net position, and budgetary
resources, for the year ended September 30, 2011 (referred to as “other FY 2011 financial statements”).
Summary
Except as discussed in our Opinion on the Financial Statements, we concluded that DHS’s FY 2012 and 2011
financial statements are presented fairly, in all material respects, in conformity with U.S. generally accepted
accounting principles.
As discussed in our Opinion on the Financial Statements, the Department changed its financial reporting
presentation of the statement of net cost, and statement of budgetary resources, in FY 2012; changed its method of
accounting for repairable spare parts, and certain user fees, in FY 2012; and restated its environmental liability
balances as presented in the FY 2011 financial statements.
Also, as discussed in our Opinion on the Financial Statements, the Department has intergovernmental debt of
approximately $17.8 billion used to finance the National Flood Insurance Program (NFIP). The Department has
determined that future insurance premiums and other anticipated sources of revenue may not be sufficient to repay
this debt. The financial statements do not include any adjustments that might result from the outcome of this
uncertainty.
As stated in the Internal Control over Financial Reporting section of this report:
We were unable to perform procedures necessary to form an opinion on DHS’s internal control over financial
reporting.
Material weaknesses in internal control over financial reporting have been identified in the following areas:
   • Financial Reporting
   • Information Technology Controls and Financial System Functionality
   • Property, Plant, and Equipment
   • Environmental and Other Liabilities
   • Budgetary Accounting
Significant deficiencies in internal control over financial reporting have been identified in the following areas:
    • Entity-Level Controls
    • Grants Management
    • Custodial Revenue and Drawback


                                      KPMG LLP is a Delaware limited liability partnership,
                                      the U.S. member firm of KPMG International Cooperative
                                      (“KPMG International”), a Swiss entity.
As discussed in the Compliance and Other Matters section of this report, the results of our tests of compliance with
certain provisions of laws, regulations, contracts, and grant agreements disclosed the following instances of
noncompliance or other matters that are required to be reported under Government Auditing Standards, issued by
the Comptroller General of the United States, and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended:
    •   Federal Managers’ Financial Integrity Act of 1982
    •   Federal Financial Management Improvement Act of 1996
    •   Single Audit Act Amendments of 1996
    •   Anti-deficiency Act
We also reported other matters related to compliance with the Anti-deficiency Act at U.S. Coast Guard (Coast
Guard), and Intelligence & Analysis.
The following sections discuss our opinion on the accompanying DHS FY 2012 and 2011 financial statements; why
we were unable to express an opinion on internal control over financial reporting; our tests of DHS’s compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements and other matters; and
management’s and our responsibilities.
Opinion on the Financial Statements
We have audited the accompanying balance sheet of the U.S. Department of Homeland Security as of September 30,
2012, and the related statements of net cost, changes in net position, and custodial activity, and combined statement
of budgetary resources for the year then ended. We have also audited the accompanying balance sheet of DHS as of
September 30, 2011, and the related statement of custodial activity for the year then ended.
In FY 2012, Coast Guard continued an extensive project to reconcile its financial statement accounts, obtain
sufficient evidence to support historical transactions, and prepare auditable financial statements. While substantial
progress was made in FY 2012, Coast Guard was unable to complete certain reconciliations or provide evidence
supporting certain components of general property, plant, and equipment (PP&E), and heritage and stewardship
assets, as presented in the accompanying FY 2012 financial statements and notes. Accordingly, we were unable to
complete our audit procedures over these components of the PP&E balance. The unaudited PP&E balances, as
reported in the accompanying balance sheet are $8.3 billion or approximately 40 percent of total PP&E net book
value at September 30, 2012.
In our opinion, except for the effects on the FY 2012 financial statements of such adjustments, if any, as might have
been determined to be necessary had we been able to apply adequate audit procedures to certain PP&E balances and
heritage and stewardship assets, as discussed in the preceding paragraph, the FY 2012 financial statements referred
to above present fairly, in all material respects, the financial position of DHS as of September 30, 2012, and its net
costs, changes in net position, custodial activities, and budgetary resources, for the year ended September 30, 2012,
in conformity with U.S. generally accepted accounting principles.
In our report dated November 12, 2011, we expressed an opinion on the Department’s FY 2011 financial statements
qualified for the effects of such adjustments, if any, as might have been determined to be necessary had we been
able to examine evidence supporting general PP&E balances, heritage and stewardship assets, and environmental
liabilities, at September 30, 2011. Since that date, the Department has provided us with evidence supporting the
environmental liability balances, and has restated such liabilities in the accompanying September 30, 2011 balance
sheet. Accordingly, our present opinion on the FY 2011 financial statements is different from that expressed in our
previous report.
In our opinion, except for the effects on the FY 2011 financial statements of such adjustments, if any, as might have
been determined to be necessary had we been able to apply adequate procedures to general PP&E, and heritage and
stewardship assets, as discussed in the preceding paragraph, the FY 2011 financial statements referred to above
present fairly, in all material respects, the financial position of DHS as of September 30, 2011 and its custodial
activity for the year then ended, in conformity with U.S. generally accepted accounting principles. Coast Guard
PP&E, as reported in the accompanying balance sheet is $9.9 billion, or approximately 50 percent of total PP&E net
book value, as of September 30, 2011.



                                                          2

We were not engaged to audit the accompanying statements of net cost, changes in net position, and budgetary
resources for the year ended September 30, 2011 and accordingly, we do not express an opinion on these other FY
2011 financial statements.
As discussed in Notes 1B and 23 of the financial statements, the Department changed its presentation of the
statement of net cost for the year ended September 30, 2012 to present costs and revenues by major mission, to
conform to its strategic plan issued during FY 2012, as required by OMB Circular No. A-136, Financial Reporting
Requirements, as amended. The statement of net cost for the year ended September 30, 2011 has not been adjusted
to conform to the current year presentation.
As discussed in Note 1B of the financial statements, the Department changed its presentation for reporting the
statement of budgetary resources in FY 2012, based on new reporting requirements under OMB Circular No. A-136,
Financial Reporting Requirements, as amended. The statement of budgetary resources for FY 2011 has been
reclassified to conform to the current year presentation.
As discussed in Note 32 of the financial statements, the Department changed its method of accounting for repairable
spare parts maintained by the Coast Guard, and for certain user fees collected by Customs and Border Protection.
These accounting changes were reflected in the FY 2012 financial statements.
As discussed in Note 34 of the financial statements, the Department has restated environmental liabilities as
presented in the September 30, 2011 balance sheet.
As discussed in Notes 1T and 15 of the financial statements, the Department has intergovernmental debt of
approximately $17.8 billion used to finance the National Flood Insurance Program. Due to the subsidized nature of
the NFIP, the Department has determined that future insurance premiums, and other anticipated sources of revenue,
may not be sufficient to repay this debt. The financial statements do not include any adjustments that might result
from the outcome of this uncertainty.
U.S. generally accepted accounting principles require that the information in the Management’s Discussion and
Analysis (MD&A), Required Supplementary Information (RSI), and Required Supplementary Stewardship
Information (RSSI) sections of the DHS FY 2012 Annual Financial Report (AFR) be presented to supplement the
basic financial statements. Such information, although not a part of the basic financial statements, is required by the
Federal Accounting Standards Advisory Board who considers it to be an essential part of financial reporting for
placing the basic financial statements in an appropriate operational, economic, or historical context. We were unable
to complete limited procedures over MD&A, RSSI, and RSI information presented in the AFR as prescribed by
professional standards because of the limitations on the scope of our audit described in the second and fourth
paragraphs of this section of our report. We did not audit the MD&A, RSSI, and RSI information presented in the
AFR and accordingly, we express no opinion on it.
Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a whole. The
information in the Other Accompanying Information section of the AFR and the information on pages 189 through
289 are presented for the purposes of additional analysis and are not a required part of the basic financial statements.
Such information has not been subjected to the auditing procedures applied in the audits of the basic financial
statements, and accordingly, we do not express an opinion or provide any assurance on them.
Internal Control Over Financial Reporting
We were engaged to audit the Department’s internal control over financial reporting of the FY 2012 financial
statements based on the criteria established in OMB Circular No. A-123, Management’s Responsibility for Internal
Control (OMB Circular No. A-123), Appendix A. DHS management is responsible for establishing and maintaining
effective internal control over financial reporting, and for its assertion on the effectiveness of internal control over
financial reporting, included in the FY 2012 DHS Secretary’s Assurance Statement, included in MD&A on pages
34-35 of the AFR, as required by OMB Circular No. A-123. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.
The FY 2012 DHS Secretary’s Assurance Statement states that the Department provides qualified assurance that
internal control over financial reporting was operating effectively at September 30, 2012, and acknowledges that
material weaknesses continue to exist in key financial processes. This conclusion is based on the Department’s
limited-scope evaluation of internal control over financial reporting conducted in FY 2012 and previous years.


                                                           3

Because of the limitation on the scope of our audit described in the second paragraph of the Opinion on the
Financial Statements section, and the nature of managements assertion on the effectiveness of internal control over
financial reporting described in the preceding paragraph, the scope of our work was not sufficient to enable us to
express, and we do not express an opinion on the effectiveness of DHS’s internal control over financial reporting.
Because of its inherent limitations, internal control over financial reporting may not prevent, or detect and correct
misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to the risk that
controls may become inadequate because of changes in conditions, or that the degree of compliance with the
policies or procedures may deteriorate.
A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A material weakness is a deficiency, or combination of deficiencies, in internal
control such that there is a reasonable possibility that a material misstatement of the entity’s financial statements will
not be prevented, or detected and corrected on a timely basis. Material weaknesses in internal control over financial
reporting have been identified in the following areas:
    •    Financial Reporting
    •    Information Technology Controls and Financial Systems Functionality
    •    Property, Plant, and Equipment
    •    Environmental and Other Liabilities
    •    Budgetary Accounting
Deficiencies identified that contribute to a material weakness at the consolidated level are presented in Exhibit I.
A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe than a
material weakness, yet important enough to merit attention by those charged with governance. Our consideration of
internal control was for the purpose described in the first paragraph of this section and would not necessarily
identify all deficiencies in DHS’s internal control that might be significant deficiencies. However, in accordance
with Government Auditing Standards, we are required to report significant deficiencies in internal control identified
during our audit. Significant deficiencies have been identified in the following areas:
    •    Entity-Level Controls
    •    Grants Management
    •    Custodial Revenue and Drawback.
Deficiencies identified that contribute to a significant deficiency at the consolidated level are presented in Exhibit
II.
Other deficiencies in internal control, potentially including additional material weaknesses and significant
deficiencies, may have been identified and reported had we been able to apply sufficient audit procedures to
general property, plant, and equipment including heritage and stewardship assets, as described in the second
paragraph of the Opinion on the Financial Statements; and had we been able to perform all procedures necessary to
express an opinion on DHS’s internal control over financial reporting of the FY 2012 financial statements.
A summary of the status of material weaknesses and significant deficiencies reported in FY 2011 is included as
Exhibit IV. We also noted certain additional deficiencies involving internal control over financial reporting and its
operation that we will report to the management of DHS in a separate letter.
Compliance and Other Matters
The results of certain of our tests of compliance as described in the Responsibilities section of this report, exclusive
of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed the
following four instances of noncompliance or other matters that are required to be reported under Government
Auditing Standards or OMB Bulletin No. 07-04, and are described in Exhibit III:
    •    Federal Managers’ Financial Integrity Act of 1982
    •    Federal Financial Management Improvement Act of 1996



                                                            4

    •    Single Audit Act Amendments of 1996
    •    Anti-deficiency Act
The results of our other tests of compliance as described in the Responsibilities section of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 07-04.
The results of our tests of FFMIA disclosed instances described in Exhibits I, and II where DHS’s financial
management systems did not substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at the
transaction level.
Other instances of noncompliance with laws, regulations, contracts, and grant agreements may have been identified
and reported, had we been able to apply sufficient audit procedures to general property, plant, and equipment
including heritage and stewardship assets as described in the second paragraph of our Opinion on the Financial
Statements, and perform all procedures necessary to complete our audit of internal control over financial reporting.
Other Matters: We also reported other matters related to compliance with the Anti-deficiency Act at the Coast
Guard and Intelligence & Analysis in Exhibit III.

                                                      *******
Responsibilities
Management’s Responsibilities. Management is responsible for the financial statements; establishing and
maintaining effective internal control over financial reporting; and complying with laws, regulations, contracts, and
grant agreements applicable to the Department.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the financial statements of DHS based on
our audits. Except as discussed in the second and fourth paragraphs of our Opinion on Financial Statements above,
we conducted our audits in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require
that we plan and perform the audits to obtain reasonable assurance about whether the financial statements are free of
material misstatement.
An audit also includes:
      •	      Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
              statements;
      •	      Assessing the accounting principles used and significant estimates made by management; and
      •	      Evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.
As part of obtaining reasonable assurance about whether DHS’s FY 2012 financial statements are free of material
misstatement, we performed tests of DHS’s compliance with certain provisions of laws, regulations, contracts, and
grant agreements, noncompliance with which could have a direct and material effect on the determination of the
FY 2012 financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 07-04, including the provisions referred to in Section 803(a) of FFMIA. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all laws,
regulations, contracts, and grant agreements applicable to DHS. However, providing an opinion on compliance
with laws, regulations, contracts, and grant agreements was not an objective of our audit, and accordingly, we do
not express such an opinion.
                                        ______________________________




                                                           5

DHS’s written response to the deficiencies in internal control, instances of noncompliance or other matters identified
in our audit is presented attached to our report, and was not subjected to the auditing procedures applied in the audit
of the DHS’s financial statements and, accordingly, we express no opinion on it.
This report is intended solely for the information and use of the DHS’s management, the DHS’s Office of Inspector
General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and
should not be used by anyone other than these specified parties.




November 14, 2012 





                                                          6

Independent Auditors’ Report
Introduction to Exhibits on Internal Control and Compliance and Other Matters


Our report on internal control over financial reporting and compliance and other matters is presented in
accordance with Government Auditing Standards, issued by the Comptroller General of the United States.
The internal control weaknesses and findings related to compliance with certain laws, regulations,
contracts, and grant agreements presented herein were identified during our audit of the U.S. Department of
Homeland Security (Department or DHS)’s financial statements as of, and for the year ended, September
30, 2012, and our engagement to audit internal control over financial reporting of those financial
statements. Our findings and the status of prior year findings are presented in five exhibits:
Exhibit I	     Significant deficiencies in internal control identified throughout the Department. All of the
               significant deficiencies reported in Exhibit I are considered material weaknesses at the DHS
               consolidated level. Beginning in FY 2012 internal control findings identified at the Coast
               Guard are presented with all other DHS components in Exhibit I, whereas previously Coast
               Guard findings were presented separately.
Exhibit II	    Significant deficiencies identified throughout the Department that are not considered a
               material weakness at the DHS consolidated financial statement level.
Exhibit III	   Instances of noncompliance with certain laws, regulations, contracts, and grant agreements
               that are required to be reported under Government Auditing Standards or Office of
               Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
               Financial Statements, as amended.
Exhibit IV	    The status of our findings reported in FY 2011.
Criteria	       Index of Financial Reporting and Internal Control Criteria
As stated in our Independent Auditors’ Report, the scope of our work was not sufficient to enable us to
express an opinion on the effectiveness of DHS’ internal control over financial reporting as of September
30, 2012. Consequently, additional deficiencies in internal control over financial reporting, potentially
including additional material weaknesses and significant deficiencies may have been identified and
reported, had we been able to perform all procedures necessary to express an opinion on DHS’ internal
control over financial reporting.
The determination of which findings rise to the level of a material weakness is based on an evaluation of
how deficiencies identified in all components, considered in aggregate, may affect the DHS financial
statements as of September 30, 2012 and for the year then ended.
We have also performed follow-up procedures on findings identified in previous engagements to audit the
DHS financial statements. To provide trend information for the DHS components, Exhibits I and II contain
Trend Tables next to the heading of each finding. The Trend Tables in Exhibits I and II depict the severity
and current status of findings, by component that has contributed to that finding from FY 2010 through FY
2012. Listed in the title of each material weakness and significant deficiency included in Exhibits I and II,
are the DHS components that contributed to the finding in FY 2012.
The criteria supporting our findings, such as references from technical accounting standards, various rules
and regulations, including requirements issued by the Office of Management and Budget and the U.S.
Treasury, and internal Departmental and component directives, is presented in the Index of Financial
Reporting and Internal Control Criteria behind Exhibit IV.
A summary of our findings in FY 2012 and FY 2011 are presented in the Tables below:
Table 1         Presents a summary of our internal control findings, by component, for FY 2012.
Table 2         Presents a summary of our internal control findings, by component, for FY 2011.
We have reported five material weaknesses and three significant deficiencies at the Department level in FY
2012, shown in Table 1.




                                                     i.1
           Independent Auditors’ Report
           Introduction to Exhibits on Internal Control and Compliance and Other Matters

                                     TABLE 1 – SUMMARIZED DHS FY 2012 INTERNAL CONTROL FINDINGS
                                                  (Full-Scope Financial Statement Audit)
           Comments / Financial Statement Area          DHS Consol.      CG         CBP   USCIS     FEMA    FLETC        ICE   MGMT    NPPD   TSA
Material Weakness:                                                                                         Exhibit I
  A    Financial Reporting                                  MW
   B        IT Controls and System Functionality            MW
   C        Property, Plant, and Equipment                  MW
  D         Environmental and Other Liabilities             MW
   E        Budgetary Accounting                            MW
Significant Deficiencies:                                                                                  Exhibit II
   F     Entity-Level Controls                               SD
  H         Grants Management                                SD
   I        Custodial Revenue and Drawback                   SD


                                     TABLE 2 – SUMMARIZED DHS FY 2011 INTERNAL CONTROL FINDINGS
                                         (Balance Sheet and Statement of Custodial Activity Audit)

                                                                          CG          CBP     USCIS    FEMA         FLETC      ICE    MGMT    TSA
           Comments / Financial Statement Area          DHS Consol.
                                                                        Military                                  Civilian
Material Weakness:                                                      Exhibit I                                 Exhibit II

   A          Financial Reporting                           MW
   B          IT Controls and System Functionality          MW
   C          Property, Plant, and Equipment                MW
   D          Environmental and Other Liabilities           MW
    E         Budgetary Accounting                          MW
Significant Deficiencies:                                                                                  Exhibit III
    F     Entity-Level Controls                              SD
   G          Fund Balance with Treasury                     SD
   H          Grants Management                              SD
       I      Custodial Revenue and Drawback                 SD



           Control deficiency findings are more significant to the evaluation of effectiveness of controls at the Department-Level
           Control deficiency findings are less significant to the evaluation of effectiveness of controls at the Department-Level
 MW Material weakness at the Department level exists when all findings are aggregated
 SD        Significant deficiency at the Department level exists when all findings are aggregated



           All components of DHS, as defined in Note 1A – Reporting Entity, to the financial statements, were included
           in the scope of our audit of the DHS financial statements as of September 30, 2012, and our engagement to
           audit internal control over financial reporting of those financial statements. Accordingly, our audit and
           engagement to examine internal control considered significant account balances, transactions, and accounting
           processes of other DHS components not listed above. Control deficiencies identified in other DHS
           components that are not identified in the table above did not individually, or when combined with other
           component findings, contribute to a material weakness or significant deficiency at the DHS consolidated
           financial statement level.




                                                                           i.2
Independent Auditors’ Report
Exhibit I – Material Weaknesses


I-A Financial Reporting (USCG, TSA, ICE)

Background: The U.S. Coast Guard (Coast Guard or USCG)
continued to make financial reporting improvements in fiscal year                       Trend Table
(FY) 2012, by completing its planned corrective actions over
                                                                                            2012     2011       2010
selected internal control deficiencies, as described in the Financial
Strategy for Transformation and Audit Readiness (FSTAR). These             USCG
remediation efforts allowed management to make new assertions in
FY 2012 related to the auditability of its financial statement             TSA
balances, including approximately $500 million of environmental
liabilities and $3 billion of real property. The FSTAR calls for           ICE                        N/A          N/A
continued remediation of control deficiencies and reconciliation of
                                                                           USCIS                C                  N/A
balances in FY 2013. Consequently, some financial reporting
control weaknesses that we reported in the past remain uncorrected
at September 30, 2012.
                                                                                   Key – Trend Table
Transportation Security Administration (TSA) continued to make
progress in strengthening internal controls. However, we noted that         C      Deficiencies are corrected
deficiencies remain in some financial reporting processes throughout
                                                                           N/A     No deficiencies reported
the component.
                                                                                   Deficiencies are less severe*
Immigration and Customs Enforcement (ICE) financial reporting
deficiencies were identified primarily as a result of expanded audit               Deficiencies are more severe*
procedures for the full-scope financial statement audit.                   * See Introduction
USCIS substantially completed corrective actions in financial
reporting processes in FY 2012.
Conditions: We noted the following internal control weaknesses related to financial reporting at Coast
Guard, TSA, and ICE.
1.	 The Coast Guard does not have properly designed, implemented, and effective policies, procedures,
    processes, and controls surrounding its financial reporting process to:
    •	 Ensure that all non-standard adjustments (i.e., journal entries, top side adjustments, and scripts)
        impacting the general ledger are adequately researched, supported, and reviewed prior to their
        recording in the general ledger, or identify and document the financial statement impact of all
        “non-GAAP” policies.
    •	 Completely support beginning balance and year-end close-out related activity in its three general
        ledgers.
    •	 Ascertain that intra-governmental activities and balances are identified and coded to the correct
        trading partner. Additionally, differences, especially with agencies outside DHS, are not
        consistently investigated and resolved in a timely manner in coordination with the Department’s
        Office of Financial Management (OFM).
    •	 Maintain general ledger activity in compliance with the United States Standard General Ledger
        (USSGL) at the transaction level.
2.	 TSA:
    •	 Has weak or ineffective controls affecting some key financial reporting processes. The control
        deficiencies noted included weaknesses in transactional and supervisory reviews over capital
        acquisitions including internal use software, expenses, budgetary accounts, and lease reporting.
    •	 Controls are not functioning within an acceptable degree of precision over management’s quarterly
        review of financial statements and supervisory reviews over journal vouchers, including
        understanding the business events that trigger a financial reporting event.


                                                     I.1
Independent Auditors’ Report
Exhibit I – Material Weaknesses


    •	 Has not fully engaged certain program and operational personnel and data into the financial
        reporting process.
    •	 Is not fully compliant with the USSGL requirements at the transaction level.
3.	 ICE:
    •	 Has not fully developed its agency-specific financial reporting process with sufficient policies,
        procedures, and internal controls. The control deficiencies contributed to the need for corrective
        adjustments in the financial statements. For example, we noted that ICE:
        -    Does not have effective controls over the accrual and subsequent reversal of payroll expense;
             and
        -    Does not have an effective process to identify material subsequent events that may impact
             year-end financial statement balances or note disclosures.
    •	 Has not dedicated adequate resources to effectively respond to audit inquiries in a timely manner,
        with accurate information, and to identify potential technical accounting issues. Specifically, we
        noted ICE:
        -    In some instances, was unable to provide documentation in a timely manner to support some
             journal entry transactions and prior period adjustments. Journal entry activity represented a
             substantial portion of the transactions in the general ledger detail for certain accounts including
             undelivered orders and operating expenses;
        -    In some instances, was unable to timely respond to audit requests for accounts payable and
             undelivered order general ledger detail, and adjustments of prior year unpaid undelivered
             orders; and
        -    Was unable to effectively identify potential technical accounting issues, analyze the relevant
             facts and circumstances, and respond to auditor inquiries on a timely basis.
    •	 Is not fully compliant with the USSGL requirements at the transaction level.
Cause/Effect: The Coast Guard does not have an effective general ledger system. The Coast Guard uses
three general ledgers, developed over a decade ago. This legacy system has severe functional limitations
contributing to the Coast Guard’s challenge of addressing systemic internal control weaknesses in financial
reporting, strengthening the control environment, and complying with relevant Federal financial system
requirements and guidelines, notably Comment III-J, Federal Financial Management Improvement Act of
1996 (FFMIA). The Coast Guard has installed a shadow general ledger system to duplicate transaction
postings as a control over financial reporting. See information technology (IT) system functionality issues
described at Comment I-B, Information Technology Controls and Financial Systems Functionality. The
conditions supporting our findings collectively limit the Coast Guard’s ability to process, store, and report
financial data in a manner that ensures accuracy, confidentiality, integrity, and availability of data without
substantial manual intervention. These conditions contribute to the Coast Guard’s continuing challenges
with preparing auditable general property, plant, and equipment balances as further described in Comment
I-C, Property, Plant, and Equipment.
In recent years, TSA has implemented several new procedures and internal controls to correct known
deficiencies. However, some procedures still require modest improvements to fully consider all
circumstances or potential errors that could occur in the process. The control deficiencies contributed to
substantive and classification errors in the financial statements, discovered during our audit.
ICE faces challenges in developing and maintaining adequate lines of communications both within the ICE
OFM and amongst its various and decentralized program offices. Communication between financial
managers and personnel responsible for contributing to financial reports was not sufficient to consistently
generate clear and usable information. In addition, ICE does not have sufficient coordination with IT
personnel, including contractors, who are responsible for generating certain financial reports. Also see
Comment II-F, Entity-Level Controls.


                                                      I.2
Independent Auditors’ Report
Exhibit I – Material Weaknesses


Because of the conditions noted above, and described throughout Exhibits I and II, the Department was
unable to provide full assurance that internal controls over financial reporting were operating effectively at
September 30, 2012, and has acknowledged in the Secretary’s Assurance Statement presented in
Management’s, Discussion, and Analysis section of the FY 2012 Annual Financial Report that material
weaknesses and other internal control deficiencies continue to exist in some key financial processes.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit IV.
Recommendations: We recommend that:
1.	 USCG:
    a.	 Continue the implementation of the FSTAR as planned in FY 2013;
    b.	 Implement accounting and financial reporting processes including an integrated general ledger
        system that is FFMIA compliant; and
    c.	 Establish new or improve existing policies, procedures, and related internal controls to ensure that:
         i)	 All non-standard adjustments (i.e., journal entries, top side adjustments, and scripts)
              impacting the general ledger are adequately researched, supported, and reviewed prior to their
              recording in the general ledger;
         ii)	 All “non-GAAP” policies are identified and their quantitative and qualitative financial
               statement impacts have been documented;
         iii) The year-end close-out process, reconciliations, and financial data and account analysis
              procedures are supported by documentation, including evidence of effective management
              review and approval, and beginning balances in the following year are determined to be
              reliable and auditable; and
         iv)	All intra-governmental activities and balances are reconciled on a timely basis, accurately
              reflected in the financial statements, and differences are resolved in a timely manner in
              coordination with the Department’s OFM.
2.	 TSA:
    a.	 Emphasize and train employees on the critical aspects of key transactional and supervisory review
        controls including the precision of the review, the need for supporting documentation, and impact
        to the financial statements;
    b.	 Work with the TSA leasing office to implement formal and effective processes for identification,
        evaluation, and recording of cancellable, non-cancellable, and capital leases;
    c.	 Expand the monthly financial statement review process to incorporate operational and business
        activities into the evaluation and assessment process; and
    d.	 Continue to analyze alternatives, including evaluation of systems, to enable FFMIA compliance.
3.	 ICE:
    a.	 Develop and implement agency-specific financial reporting policies, procedures, supporting sub­
        processes, and internal controls to ensure that accruals and subsequent reversals are correct, and
        subsequent event reviews are effective in identifying material transactions that affect the financial
        statements;
    b.	 Implement procedures to involve financial management, and others as needed, when making
        accounting policy decisions to ensure that adopted accounting policies are technically correct,
        supported, and properly reflect the business transaction in the financial statements;
    c.	 Assess resource needs and assign sufficient staff to respond to audit inquiries with accurate and
        complete information in a timely manner; and
    d.	 Develop formal policies and procedures to ensure compliance with the USSGL requirements at the
        transaction level.

                                                      I.3
Independent Auditors’ Report
Exhibit I – Material Weaknesses


I-B Information Technology Controls and Financial System Functionality (USCG, CBP, USCIS,
FEMA, ICE)
 Background: During DHS’ financial statement integrated audit, we                        2012   2011    2010
evaluated select general Information Technology (IT) controls (GITC)
using the objectives defined by U.S. Government Accountability                USCG
Office (GAO)’s Federal Information System Controls Audit Manual
                                                                               CBP
(FISCAM), in five key control areas: security management, access
control, configuration management, segregation of duties, and                USCIS
contingency planning. In addition to GITCs, we evaluated select
application controls, which are controls supporting the structure,           FEMA
policies, and procedures that apply to the use, operability, interface,
edit, and monitoring controls of a financial application.                      ICE

During our FY 2012 assessment of IT general and application               See page I.1 for table explanation
controls, we noted that the DHS components made progress in the
remediation of IT findings we reported in FY 2011. We closed approximately 70 (46 percent) of our prior
year IT findings.
New findings in FY 2012 resulted primarily from additional IT systems and business processes that came
within the scope of our audit this year, and were noted at all DHS components. CBP and FEMA had the
greatest number of new findings. We also considered the effects of financial system functionality when
testing internal controls and evaluating findings. Many key DHS financial systems are not compliant with
FFMIA and OMB Circular Number A-127, Financial Management Systems, as revised. DHS financial
system functionality limitations add substantially to the Department’s challenges of addressing systemic
internal control weaknesses, and limit the Department’s ability to leverage IT systems to effectively and
efficiently process and report financial data.
Conditions: Our findings, which are a cross-representation of common general IT control deficiencies
identified throughout the Department’s components, related to IT general and application controls and
financial systems functionality follow:
Related to IT general and application controls:
1.	 Access Controls:
    •	 Deficiencies in management of application and/or database accounts, network, and remote user
        accounts.
    •	 Ineffective safeguards over logical and physical access to sensitive facilities and resources.
    •	 Lack of generation, review, and analysis of system audit logs and adherence to DHS requirements.
    •	 Excessive access of authorized personnel to sensitive areas containing key financial systems, and
        data center access controls were not properly enforced.
2. Configuration Management
    •	 Lack of documented policies and procedures.
    •	 Script management test plans were not documented to meet the minimum DHS requirements.
    •	 Security patch management and configuration deficiencies were identified during the vulnerability
        assessment on the platforms supporting the key financial applications and general support systems.
    •	 Evidence to support authorized modifications to key financial systems was not maintained.
    •	 Internal requirements to conduct Functional Configuration Audits (FCAs) and Physical 

        Configuration Audits (PCAs) were not followed at one component.





                                                     I.4
Independent Auditors’ Report
Exhibit I – Material Weaknesses


3.	 Security Management:
    •	 Systems certification and accreditation were not completed and documented.
    •	 IT Security personnel lack mandatory role-based training or compliance was not documented and
        monitored, and computer security awareness training was not monitored.
    •	 Background investigations of federal employees and contractors employed to operate, manage and
        provide security over IT systems were not being properly conducted, nor consistently tracked and
        monitored.
4.	 Contingency Planning:
    •	 Service continuity plans were not tested nor updated to reflect the current environment, and an
        alternate processing site has not been established for high risk systems.
    •	 Authorized access to backup media was not periodically reviewed and updated; at one component
        procedures to periodically test backups was not implemented.
5.	 Segregation of Duties:
    •	 Lack of evidence to show that least privilege and segregation of duties controls exist, including
        policies and procedures to define conflicting duties and access rights.
These control findings, including other significant deficiencies and criteria are described in greater detail in
a separate Limited Official Use letter provided to DHS management.

Related to financial system functionality:
Coast Guard (some conditions impact TSA as a user of Coast Guard’s IT accounting systems):
    •	 The core financial system configuration management process relies on an IT script process as a
        solution primarily to compensate for system functionality and data quality issues.
    •	 The component is unable to routinely query its various general ledgers to obtain a complete
        population of financial transactions, and consequently must create many manual custom queries
        that delay financial processing and reporting processes.
    •	 A key financial system is limited in processing overhead cost data and depreciation expenses in
        support of the property, plant and equipment financial statement line item.
    •	 Production versions of financial systems are outdated and do not provide the necessary core
        functional capabilities (e.g., general ledger capabilities).
    •	 The budgetary module of the core financial system is not activated. As a result, key attributes (e.g.,
        budget fiscal year) are missing and potential automated budgetary entries (e.g., upward
        adjustments) are not used. This has created the need for various manual workarounds and non­
        standard adjustments (i.e., topsides) to be implemented.
    •	 Financial systems functionality limitations are preventing the Coast Guard from establishing
        automated processes and application controls that would improve accuracy, reliability, and
        facilitate efficient processing of certain financial data such as:
        -    Receipt of goods and services upon delivery. As a result, the Coast Guard records a manual
             estimate of potential receipted goods and services at year end in the general ledger;
        -    Ensuring proper segregation of duties and access rights, such as automating the procurement
             process to ensure that only individuals who have proper contract authority can approve
             transactions or setting system access rights within the fixed asset subsidiary ledger;




                                                       I.5
Independent Auditors’ Report
Exhibit I – Material Weaknesses


         -   Maintaining adequate posting logic transaction codes to ensure that transactions are recorded
             in accordance with generally accepted accounting principles (GAAP); and
         -	 Tracking detailed transactions associated with intragovernmental business and eliminating the
             need for default codes such as Trading Partner Identification Number that cannot be easily
             researched.
Other Department Components:
We noted many cases where financial system functionality is inhibiting DHS’ ability to implement and
maintain internal controls, notably IT application controls supporting financial data processing and
reporting. Financial system functionality limitations also contribute to other control deficiencies reported
in Exhibits I and II, and compliance findings presented in Exhibit III. We noted persistent and pervasive
financial system functionality conditions at all of the significant DHS components in the following general
areas:
    •	   Inability of financial systems to process, store, and report financial and performance data to
         facilitate decision making, safeguarding and management of assets, and prepare financial
         statements that comply with GAAP.

    •	   Technical configuration limitations, such as outdated systems that are no longer fully supported by
         the software vendors, impaired DHS’ ability to fully comply with policy in areas such as IT
         security controls, notably password management, audit logging, user profile changes, and the
         restricting of access for off-boarding employees and contractors.

    •	   System capability limitations prevent or restrict the use of applications controls to replace less
         reliable, more costly manual controls. Or in some cases, require additional manual controls to
         compensate for IT security or control weaknesses.
Cause/Effect: DHS management recognizes the need to upgrade its financial systems. Until serious legacy
IT issues are addressed, and updated IT solutions implemented, compensating controls and other complex
manual workarounds must support its IT environment and financial reporting. As a result, DHS’ difficulty
in attesting to a strong control environment, to include effective general IT controls and reliance on key
financial systems, will continue.
The conditions supporting our findings collectively limit DHS’ ability to process, store, and report financial
data in a manner to ensure accuracy, confidentiality, integrity, and availability. Some of the weaknesses
may result in material errors in DHS’ financial data that are not detected in a timely manner through the
normal course of business. In addition, because of the presence of IT control and financial system
functionality weaknesses; there is added pressure on mitigating controls to operate effectively. Because
mitigating controls are often more manually focused, there is an increased risk of human error that could
materially affect the financial statements.
Recommendation: We recommend that the DHS Office of the Chief Information Officer (OCIO), in
coordination with the Office of the Chief Financial Officer (OCFO) continue the Financial Systems
Modernization initiative, and make necessary improvements to the Department’s financial management
systems and supporting IT security controls. Specific recommendations are provided in a separate Limited
Official Use letter provided to DHS management.




                                                      I.6
Independent Auditors’ Report
Exhibit I – Material Weaknesses


I-C Property, Plant, and Equipment (USCG, CBP, ICE)
Background: The Coast Guard maintains approximately 50 percent
of all DHS general property, plant, and equipment (PP&E). Many of                            2012    2011     2010
the Coast Guard’s assets are constructed over a multi-year period,               USCG
have long useful lives, and undergo extensive routine servicing that
may increase their value or extend their useful lives. The Coast                  CBP
Guard categorizes PP&E as personal property (i.e., aircraft, vessels,
vehicles, leasehold improvements, software, information technology,               ICE                 N/A          C
and other equipment), real property (i.e., land, improvements to land,
buildings, other structures, and facilities), or construction-in-process          TSA         C
(CIP).
                                                                                MGMT          C               N/A
DHS stewardship PP&E primarily consists of Coast Guard heritage
assets, which are PP&E that are unique due to historical or natural           See page I.1 for table explanation
significance; cultural, educational, or artistic (e.g., aesthetic)
importance; or architectural characteristics. Coast Guard heritage assets consist of both collection type
heritage assets, such as artwork and display models, and non-collection type heritage assets, such as
lighthouses, sunken vessels, and buildings.
In FY 2012, the Coast Guard continued to perform remediation to address PP&E process and control
deficiencies, specifically those associated with land, buildings and other structures, vessels, small boats,
aircraft, and CIP. However, remediation efforts were not fully completed in FY 2012, and consequently,
most of the conditions cited below have been repeated from our FY 2011 report.
Customs and Border Protection (CBP) has acquired substantial new technology, facilities, and other assets
in recent years through purchase and construction. CBP’s new assets include construction of border
fencing (both physical and virtual), purchase of inspection equipment at ports of entry, and new
construction at port of entry facilities.
ICE underwent a process to identify assets that had been inappropriately expensed in prior fiscal years,
resulting in corrective adjustments made to the financial statements in FY 2012.
The Management Directorate (MGMT) implemented new processes to remediate PP&E control
deficiencies in FY 2012.
TSA substantially completed corrective actions in property, plant, and equipment accounting processes in
FY 2012. Remaining control deficiencies affecting PP&E are broadly related to financial reporting, and
have been grouped with conditions cited at Comment I-A, Financial Reporting
Conditions: We noted the following internal control weaknesses related to PP&E at USCG, CBP, and ICE:
1.	 USCG:
    •	 Has not fully established accurate and auditable PP&E balances as of September 30, 2012 for
         personal property and CIP balances reported in the financial statements and related disclosures and
         supplementary information. For example, USCG has not:
         -   Implemented sufficient internal controls and related processes to accurately, consistently, and
             timely record additions to PP&E, (including all costs necessary to place the asset in service
             e.g., other direct costs), transfers from other agencies, disposals, and CIP activity.
         -   Sufficiently supported its methodologies, assumptions, and underlying data, for indirect costs
             allocated to PP&E projects.
         -   Implemented accurate and complete asset identification, system mapping, and tagging
             processes that include sufficient detail (e.g., serial number) to clearly differentiate and
             accurately track personal property assets to the fixed assets system.
         -   Properly accounted for improvements and impairments to personal property assets, capital
             leaseholds, selected useful lives for depreciation purposes, and capitalization thresholds,
             consistent with GAAP.

                                                        I.7
Independent Auditors’ Report
Exhibit I – Material Weaknesses


    •	 Has not implemented policies, procedures, and effective controls to ensure the accuracy of all
        underlying data elements and assumptions used to record real property balances, such as land,
        buildings and other structures.
    •	 Has not implemented a process to identify and evaluate all lease agreements to ensure that they are
        appropriately categorized as operating or capital, and properly reported in the financial statements
        and related disclosures.
    •	 Has not fully designed and implemented policies, procedures, and internal controls to support the
        completeness, existence, accuracy, and presentation assertions over data utilized in developing
        required financial statement disclosures, and related supplementary information, for stewardship
        PP&E.
2.	 CBP:
    •	 Does not always adhere to procedures and processes to properly account for asset purchases and
        transfers, construction, depreciation, or disposal of assets in a timely manner. For example, CBP
        did not:
        -   Ensure all asset additions are recorded accurately and timely, and are correctly valued in the
            financial statements.
        -	 Transfer certain assets from CIP to “in-use” assets in a timely manner.
        -	 Record some asset disposals timely and in accordance with policy.
        -   Maintain complete documentation supporting the timely and accurate accounting for asset
            transactions, so that it is available for audit.
3.	 ICE:
    •	 Does not have adequate processes and controls in place to identify internal-use software projects
        that should be considered for capitalization. After a project has been identified for capitalization,
        ICE did not have adequate processes to capitalize costs associated with the software project.
        Similar control weaknesses exist for other types of PP&E and indirect costs at ICE.
    •	 Does not have adequate policies and procedures to ensure that assets acquired are recorded in the
        general ledger in a timely manner. The majority FY 2012 additions to PP&E that we tested were
        purchased in previous years, but not recorded in the general ledger until the current year.
Cause/Effect: The Coast Guard has had difficulty establishing its opening PP&E balances and accounting
for leases, primarily because of poorly designed policies, procedures, and processes implemented more
than a decade ago, combined with ineffective internal controls, and IT system functionality difficulties, See
Comment I-B, Information Technology Controls and Financial System Functionality. Additionally, due to
limited resources, the Coast Guard deferred corrective actions associated with personal property and
stewardship PP&E to FY 2013. As a result, the Coast Guard is unable to accurately account for personal
property, CIP, stewardship PP&E, and leases, and provide necessary information to DHS OFM for
consolidated financial statement purposes.
CBP does not have fully implemented policies and procedures, or does not have sufficient oversight of its
adherence to policies and procedures, to ensure that all PP&E transactions are recorded timely and
accurately, or to ensure that all assets are recorded and properly valued in the general ledger.
ICE had not incurred substantial costs for internal use software until recent years, and previously treated
capital expenditures as period costs as incurred. When ICE increased spending on capital projects,
appropriate systems and processes were not established to properly account for the costs, or identify costs
that qualify for capitalization as internal use software. In FY 2012, ICE completed a review of past and
current projects, and recorded an adjustment to the financial statements to properly reflect capitalized
internal use software.



                                                     I.8
Independent Auditors’ Report
Exhibit I – Material Weaknesses


Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit IV.
Recommendations: We recommend that:
1.	 USCG:
    a.	 Continue remediation efforts to establish PP&E balances in the financial statements and related
        disclosures and supplementary information, including appropriate controls and related processes to
        accurately and timely record additions to PP&E, transfers from other agencies, improvements,
        impairments, capital leases, indirect costs, and disposals. Additionally, continue to implement
        controls over the completeness, existence, accuracy, and valuation of all CIP related balances and
        activity;
    b.	 Establish new or improve existing policies, procedures, and related internal controls to sufficiently
        support methodologies, assumptions, and underlying data, for indirect costs allocated to PP&E
        projects;
    c.	 Implement processes and controls to facilitate identification and tracking, and to ensure that the
        status of assets is accurately tracked in the subsidiary ledger;
    d.	 Implement internal controls to ensure the accuracy of underlying data elements, calculations, and
        assumptions used to support real property balances;
    e.	 Develop and implement a process to identify and evaluate lease agreements to ensure that they are
        appropriately classified as operating or capital, and are properly reported in the financial
        statements and related disclosures; and
    f.	 Develop and implement policies, procedures, and internal controls to support the completeness,
        existence, accuracy, and presentation and disclosure assertions related to supplementary
        information for stewardship PP&E.
2.	 CBP:
    a.	 Ensure that existing policies and procedures for recording asset additions, reclassifications, and
        retirements are followed, and properly communicated throughout CBP;
    b.	 Enhance supervisory and monitoring controls to review PP&E transactions in a timely manner;
        and
    c.	 Maintain complete documentation supporting asset transactions recorded in the general ledger.
3.	 ICE:
    a.	 Develop and implement sustainable processes and controls to identify internal-use software
        projects at the time of project inception, and to timely record capitalized software costs and
        associated indirect costs; and
    b.	 Develop and implement policies and procedures to ensure that assets acquired are recorded in a
        timely manner.

I-D Environmental and Other Liabilities (USCG)

Background: The Coast Guard’s environmental liabilities represent
approximately $500 million or 75 percent of total DHS environmental                        2012     2011      2010
liabilities. During FY 2012, the Coast Guard completed the final              USCG
phases of a multi-year remediation plan to address process and control
deficiencies related to environmental liabilities.                             See page I.1 for table explanation

The Coast Guard estimates accounts payable by adjusting the prior
year accrual estimate based on an analysis of actual payments made subsequent to September 30 of the
prior year.



                                                     I.9
Independent Auditors’ Report
Exhibit I – Material Weaknesses


Conditions: We noted the following internal control weaknesses related to environmental liabilities and
other liabilities at the Coast Guard:
Regarding Environmental Liabilities:
The Coast Guard did not:
    •	 Implement policies and procedures to develop, record, and periodically review environmental
        liability estimates until later in FY 2012.
    •	 Implement effective controls to ensure the completeness and accuracy of all underlying data
        components used in the calculation of environmental liability balances.
    •	 Have documented policies and procedures to update, maintain, and review schedules tracking
        environmental liabilities where Coast Guard is not the primary responsible party (e.g., Formerly
        Used Defense Sites) at the headquarters level.
By the end of FY 2012, management implemented new internal controls that they believe will address these
deficiencies.
Regarding Other Liabilities:
The Coast Guard did not effectively implement existing policies and procedures associated with the:
    •	 Validation (i.e., “look back”) performed over the prior year accounts payable estimate.
        Specifically, the Coast Guard did not consider all of the relevant factors contributing to the
        variance identified in the analysis and determine the impact on the current year estimate.
    •	 Consideration of potentially relevant current year data on the accounts payable estimate. As a
        result, current year data that may have a significant impact on the estimate could be overlooked
        and not identified until a true-up is performed in the subsequent year.
    •	 Statistical calculation of the accounts payable estimate. Errors were identified in the treatment of
        sample items that impacted the extrapolation of the statistical results and related accounts payable
        estimate.
Cause/Effect: The Coast Guard did not fully complete its remediation plans to develop, document, and
implement policies and procedures to prepare and record environmental liability estimates in accordance
with applicable accounting standards until the fourth quarter of FY 2012. As a result, internal control
weaknesses existed throughout the year, environmental liability balances were misstated until the fourth
quarter of FY 2012, and $478 million in adjustments to the prior period financial statements were identified
and recorded.
The Coast Guard did not fully implement and document their existing accounts payable accrual procedures.
Additionally, the management review controls over samples used in the accounts payable estimate were not
operating effectively. Without consideration of applicable look back results and current year data and
effective review of underlying data used in the calculation of accounts payable, a misstatement in the
accounts payable estimate may occur and not be identified in a timely manner (i.e., until validation is
performed in a subsequent period).
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit IV.
Recommendations: We recommend that the Coast Guard:
Regarding Environmental Liabilities:
1.	 Ensure that existing policies and procedures over the completeness and accuracy of underlying data
    used in the calculation of environmental liability balances are properly followed and performed; and
2.	 Develop and implement policies and procedures to update, maintain, and review schedules tracking
    environmental liabilities where Coast Guard is not the primary responsible party (e.g., Formerly Used
    Defense Sites) at the headquarters level.


                                                      I.10
Independent Auditors’ Report
Exhibit I – Material Weaknesses


Regarding Other Liabilities:
3.	 Improve the enforcement of existing policies and procedures related to the accounts payable estimate.
    In particular, emphasize the importance of the consideration and documentation of applicable look
    back results and current year data, and effective review of underlying data, used in the calculation of
    the accounts payable estimate.

I-E Budgetary Accounting (USCG, FEMA, ICE, MGMT, FLETC)

Background: DHS has numerous sources and types of budget                                       2012     2011     2010
authority, including annual, multi-year, no-year and permanent and
indefinite appropriations, as well as several revolving, special, and            USCG
trust funds. Accounting for budgetary transactions in a timely and
accurate manner is essential to managing the funds of the Department             FEMA
and preventing overspending of allotted budgets.
                                                                                  ICE                   N/A       N/A
Coast Guard implemented corrective actions plans over various
budgetary accounting processes in FY 2012; however, some control                 MGMT                   N/A       N/A
deficiencies reported in FY 2011 remain, and new deficiencies were               FLETC                  N/A       N/A
identified.
                                                                                  See page I.1 for table explanation
In FY 2012, FEMA continued to improve its processes and internal
controls over the obligation and monitoring process; however, some
control deficiencies remain.
As the financial service reporting provider, ICE is responsible for recording budgetary transactions and
administering budgetary processes across different types of funds at NPPD, Science and Technology
Directorate (S&T), MGMT, and Office of Heath Affairs (OHA). In FY 2011, ICE identified and began
remediating deficiencies in the system posting logic related to downward and upward adjustments of prior
year unpaid undelivered orders. In FY 2012, ICE continued to address these issues with certain types of
obligations.
The Management Directorate is responsible for the operations and financial oversight of several programs
including the DHS Working Capital Fund. The Working Capital Fund provides shared services to DHS
agencies. In FY 2012, MGMT recorded several corrective adjustments that were indicative of deficiencies
in internal controls over financial reporting at the process level.
The Federal Law Enforcement Training Center (FLETC) budgetary reporting process came within the
scope of our audit this year, and as a result new control deficiencies were identified.
Conditions: We noted the following internal control weaknesses related to budgetary accounting at USCG
FEMA, ICE, MGMT, and FLETC:
1.	 USCG:
    •	 Has not fully implemented existing policies, procedures, and internal controls to ensure that
        obligations are reviewed and approved and undelivered order balances are monitored to ensure
        their timely deobligation when appropriate.
    •	 Does not have fully implemented policies, procedures, and internal controls over the monitoring of
        reimbursable agreements, and related budgetary unfilled customer orders, to ensure activity,
        including closeout and de-obligation, as appropriate, is recorded timely and accurately.
    •	 Does not have sufficient policies and procedures for recording the appropriate budgetary entries
        upon receipt of goods, and prior to payment.
2.	 FEMA:
    •   Did not effectively certify the status of its obligations to ensure validity prior to fiscal year end.


                                                      I.11
Independent Auditors’ Report
Exhibit I – Material Weaknesses


    •	 Could not readily provide all supporting documentation for obligations and deobligations made
          during the year and for undelivered orders we audited at June 30, 2012 and September 30, 2012.
    •	 Did not properly review budgetary funding transactions recorded in the general ledger.
    •	 Did not timely and effectively complete management reviews over the monthly reconciliations of
          the SF-132, Apportionment and Reapportionment Schedule, to the SF-133, Report on Budget
          Execution and Budgetary Resources.
3.	 ICE
    •	 Lacks effective controls over the verification and validation (V&V) of undelivered orders which
          resulted in substantive errors (invalid obligations) identified through our audit. Specifically, we
          noted that:
          -   V&V reviews performed by the ICE financial managers indicate reliance on responses from
              field office personnel to determine the validity of open obligations which are sometimes
              inaccurate, or do not provide sufficient information for the ICE financial managers to make an
              informed decision about the balance, rendering the V&V process ineffective.
          -   Controls were not operating effectively to consistently produce documentation to support the
              underlying events that support a downward and upward adjustment of prior year unpaid,
              undelivered orders. We identified errors in total downward and upward adjustments posted in
              FY 2012 of 20 percent and 50 percent, respectively. In addition, adjustments were not
              recorded correctly against certain types of obligations in the general ledger.
    •     Does not have an effective process to match advances to obligations at the transaction level.
4.	 MGMT:
    •	 Lacks effective controls to effectively monitor undelivered order balances to appropriately de-
          obligate or adjust undelivered order balances on a timely basis.
    •	 Internal controls are not properly designed to adequately monitor unfilled customer order balances,
          related to both Working Capital Fund and non-Working Capital Fund activity. Specifically, we
          noted:
          -   Multiple adjustments to MGMT’s unfilled customer order balances as well as to component
              undelivered order balances were recorded and subsequently reversed; and
          -   Unfilled customer orders whose period of performance had expired were not properly drawn
              down to the outstanding obligation balance.
5.	 FLETC:
    •	 Management did not have controls in place to perform a thorough review of the FY 2012 unfilled
          customer order beginning balances, related to reimbursable construction, to ensure beginning
          balances were properly recorded.
Cause/Effect: The Coast Guard’s decentralized structure enables obligations to be made throughout the
country by various authorized personnel, contributes to the challenge of enforcing existing policies,
procedures, and internal controls surrounding budgetary accounting and has caused various control gaps in
the internal control environment. Additionally, financial system functionality issues prohibit the Coast
Guard from implementing and maintaining automated internal controls to supplement their existing manual
controls. For example, the Coast Guard relies on manual workarounds to identify undelivered orders and
recoveries since the budgetary module of the financial system is not active. Also see Comment I-B,
Information Technology Controls and Financial System Functionality. Lastly, remediation efforts
associated with unfilled customer orders and reimbursable agreements are not scheduled to be completed
until after FY 2012. Weak controls in budgetary accounting increase the risk that the Coast Guard will
misstate budgetary balances, and may unintentionally lead to a violation of the Anti-deficiency Act by
overspending its budget authority.

                                                       I.12
Independent Auditors’ Report
Exhibit I – Material Weaknesses


FEMA’s annual undelivered order certification process was not effectively designed. Also, FEMA’s
administrative functions are geographically separated from programmatic operations which make
consistent enforcement of policy challenging. Certain offices within FEMA do not have effective
document maintenance policies and procedures, making the location of certain supporting documentation
difficult. We noted that for certain undelivered order balances significant effort was required to coordinate
and identify the responsible parties, to access certain files, locate files, or to provide information in a form
that clearly supported the balances reported in the financial statements. Without adequate documentation,
FEMA is unable to support the validity of obligation status. In addition, In addition, FEMA personnel have
not fully adhered to the existing procedures for the recording of funding transactions because of lack of
oversight by management. As a result, FEMA’s financial information submitted to DHS for financial
statement purposes may contain significant budgetary account errors if they are not detected
ICE’s validation and verification process was not adequate to identify invalid undelivered orders, resulting
in an overstatement of undelivered orders as obligations are not closed out in a timely manner. In addition,
ICE recorded erroneous upward and downward adjustments of prior year obligations that were not correct
or identified during OFM’s review of current year activity. ICE implemented a review of downward and
upward adjustments of prior year obligations in the current year, however the review control was not
designed effectively to detect and correct material invalid recoveries. In some instances, the financial
system configuration contributed to these errors. This deficiency is also related to the conditions described
in Comment II-F, Entity Level Controls, and Comment III-J, Federal Financial Management Improvement
Act of 1996 (FFMIA).
The Management Directorate conducted an internal review of undelivered order and unfilled customer
order balances in FY 2012. The results of the review indicated that Management’s validation and
verification process did not consistently result in the timely deobligation of undelivered orders. In addition,
Management was not updating the status of its customer agreements, in a timely manner to prevent a
misstatement to its account balances, and that the controls in place to address this risk at the process level
are not operating effectively.
FLETC did not have effective management review controls over funding received from the ordering
agency, and matching those funds to the proper type of funds available to it, resulting in a misstatement in
beginning balances.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit IV.
Recommendations: We recommend that:
1.	 USCG:
    a.	 Continue to improve the enforcement of existing policies and procedures related to processing
        obligation transactions and the periodic review and validation of undelivered orders. In particular,
        emphasize the importance of performing effective reviews of open obligations, obtaining proper
        approvals, and retaining supporting documentation; and
    b.	 Continue with current remediation efforts to develop and implement policies, procedures, and
        internal controls over the monitoring of reimbursable agreements and unfilled customer orders to
        ensure activity, including closeout and de-obligation, is recorded timely and accurately.
    c.	 Implement sufficient policies and procedures for recording the appropriate budgetary entries
        timely upon receipt of goods, and prior to payment.
2.	 FEMA:
    a.	 Revise the established annual undelivered order certification process to ensure that outstanding
        obligations are properly certified for validity prior to fiscal year end;
    b.	 Continue to improve procedures for storing and locating documentation supporting undelivered
        order information, including points of contact, so that supporting information is readily available
        for management review and audit purposes;



                                                      I.13
Independent Auditors’ Report
Exhibit I – Material Weaknesses


    c.	 Implement improved review procedures for budgetary funding transactions recorded in the general
        ledger; and
    d.	 Develop and implement monitoring controls to ensure that management reviews of the monthly
        SF-132 to SF-133 reconciliations are completed timely and effectively.
3.	 ICE:
    a.	 Improve controls over the verification and validation of undelivered orders to identify outstanding
        obligations that need to be closed out and/or adjusted for financial statement presentation;
    b.	 Implement policies and procedures to ensure that financial managers work with field office
        personnel to perform a rigorous review of the open obligations and maintain appropriate
        documentation of these reviews; and
    c.	 Improve the process of recording recoveries and upward adjustments of prior year obligations,
        including identification and adjustment for offsetting transactions.
    d.	 Implement an effective process to match advances to obligations at the transaction level.
4.	 MGMT:
    a.	 Develop and implement changes to current policies and procedures to ensure timely review and
        accurate reporting of budgetary balances.
5.	 FLETC:
    a.	 During FY 2012, FLETC corrected this condition, by establishing multi-year and annual funds to
        match the funds of the ordering agency, and implemented an enhanced process to review unfilled
        customer orders related to construction.




                                                   I.14
Independent Auditors’ Report
Exhibit II – Significant Deficiencies


II-F Entity-Level Controls (Department-wide, and TSA, FEMA, ICE, NPPD)

Background: Entity-level controls encompass the over-all control
environment throughout the entity. This includes the governance and                        2012     2011      2010
management functions and the attitudes, awareness, and actions of             Ethics
those charged with governance, and management concerning the                                         N/A       N/A
                                                                             Division
entity's internal control and its importance in the entity. The control
environment sets the tone of an organization, influencing the control          TSA                              C
consciousness of its people. Entity-level controls are often
                                                                             FEMA
categorized as environmental controls, risk assessment, monitoring or
communications, as defined by the Committee of Sponsoring                      ICE                   N/A       N/A
Organizations of the Treadway Commission (COSO), and the
Government Accountability Office. These controls must be effective,           NPPD                   N/A       N/A
to create and sustain an organizational structure that is conducive to
                                                                               See page I.1 for table explanation
reliable financial reporting.
In the past three years, DHS has undertaken and completed several steps designed to strengthen its entity
and process level internal controls, and thereby improve the reliability of financial reporting. These steps
are documented in the Internal Control over Financial Reporting Playbook. The Office of Management
and Budget (OMB) Circular No. A-123, Management’s Responsibility for Internal Control, (OMB Circular
No. A-123) assessment is also designed to assist with the remediation of control deficiencies, in accordance
with an OMB approved plan.
The conditions below should be read in conjunction with Comment I-B, Information Technology Controls
and Financial System Functionality, which describes entity-level control weaknesses related to Department
and component IT systems.
The DHS Office of Ethics manages the Department’s ethics programs, and provides liaison to the U.S.
Office of Government Ethics, and administers the DHS financial disclosure program. DHS requires certain
employees whose duties involve the exercise of discretion in sensitive areas to file a confidential financial
disclosure report, known as the Office of Government Ethics (OGE) 450. Certain other senior DHS
officials may be required to file a public financial disclosure report, known as the OGE 278. The forms are
reviewed by an ethics official to determine whether any potential conflicts exist between the official duties
and private financial interests and affiliations.
Conditions:
1.	 Headquarters Ethics Division and Components: We noted that pervasive process and internal control
    deficiencies exist throughout the Department related to compliance with Federal requirements over
    financial disclosure forms. Specifically, the Department and components have ineffective controls to
    ensure proper and timely filing, review, and certification of public financial disclosure (OGE 278 and
    450) forms. At every component selected for testwork, including, CBP, USCIS, Coast Guard, FEMA,
    ICE, NPPD, and TSA we noted at least one of the following deficiencies:
    •	 Untimely submission of the financial disclosure form (either OGE 278 or OGE 450).
    •	 Untimely review and/or certification of the financial disclosure form by the designated Ethics
        Official.
    •	 The financial disclosure form was not submitted by the individual.
    •	 The filing status of the individual was undetermined, or a listing of disclosure filers was not
        complete.
In addition to the conditions cited above we noted the following entity-level control deficiencies at DHS
components:




                                                     II.1
Independent Auditors’ Report
Exhibit II – Significant Deficiencies


2.	 TSA:
    •	 Lacks formalized documented policies and procedures to ensure that new IT systems are properly
        developed and reviewed, by the appropriate offices and levels of management prior to
        implementation.
    •	 Lacks organizational policies and procedures outside of the TSA OFM needed to ensure timely,
        accurate, and valid responses to auditor requests of information and inquiries.
3.	 FEMA:
    •	 Has not certified its policies and procedures on a biennial basis to validate they are accurate and
        current, as required by FEMA Directive No. 112-1.
    •	 Did not formalize a process to ensure that personnel attend required ethics training.
    •	 Has not developed sufficient policies and procedures to properly conduct and track the status of
        background investigations and maintain related documentation.
4.	 ICE:
    •	 Does not effectively communicate financial reporting roles and responsibilities within ICE OFM,
        between program offices and with DHS customer components.
    •	 Does not have effective financial systems contractor oversight to ensure that financial information
        provided by contractors for use by management and the financial statement auditor is adequately
        prepared and reviewed.
    •	 Has not fully developed processes to identify and manage risks through the annual risk assessment
        process, and to monitor adherence to financial management policies and procedures of staff that
        reside outside ICE OFM.
5.	 NPPD:
    •	 Lacks policies and procedures to ensure a central accounting infrastructure is in place that is able
        to support a strong system of internal controls, including areas with technical requirements.
    •	 Does not effectively monitor financial activities across the organization to ensure transactions are
        recorded completely, accurately, and timely.
    •	 Lacks communication and review processes between the NPPD OFM and its service provider to
        ensure the accuracy of financial information.
Cause/Effect: The DHS headquarters Ethics Division does not have adequate policies and procedures to
ensure required financial disclosure reports are received and the final review and certification is completed
within the timelines established by the United States Office of Government Ethics. In addition, the Ethics
Division and human resources do not have adequate communication to accurately identify those individuals
who are required to file financial disclosure forms. Untimely filing and review of OGE Form 278 and OGE
Form 450 forms may lead to undetected conflicts of interest that undermine the public trust of high-level
Federal officials and certain executive branch employees.
TSA has not yet fully developed its processes, controls, and training throughout the agency to ensure that
important programmatic matters that may affect financial reporting are communicated to TSA’s OFM.
Consequently, TSA was at times dependent on the external financial statement audit process to identify
business process changes with financial reporting impact and the associated risks of misstatement or
account balance errors in the financial statements.
FEMA has not fully developed and implemented processes to certify all policies and procedures and to
ensure compliance with relevant ethics training requirements. In addition, FEMA has not dedicated
sufficient resources to ensure that the appropriate minimum investigative or re-investigative requirements
specified by DHS are fulfilled and documented within the system of record for agency personnel security



                                                     II.2
Independent Auditors’ Report
Exhibit II – Significant Deficiencies


data prior to granting a Personal Identity Verification card, which is a pre-condition for granting system
access.
ICE OFM devotes a significant portion of its resources to other agencies within the Department as a
financial reporting service provider. In addition, ICE’ own internal operations are decentralized. As such,
a reliable system of communications including internal policies and procedures, and service level
agreements with DHS customers that clearly define roles and responsibilities for internal control and data
integrity are needed. Difficulties with IT financial systems are partially due to ICE’s use of a proprietary
financial system and do not currently have the ability to extract usable information without the aid of the
system contractor.
NPPD’s organization has grown to include a diverse set of operations including cyber security,
infrastructure protection, the Federal Protective Service (FPS), and the US-VISIT program, creating
communication and information challenges. NPPD does not have sufficient central accounting
infrastructure that is able to support a strong system of internal controls, especially for transactions that
require unique understanding of technical requirements such as accounting for internal use software.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit IV.
Recommendations: We recommend that:
1.	 Office of Ethics and Various Components:
    a.	 Review existing policies, including processes involving review and enforcement of required
        procedures, and implement updated polices and controls as necessary to ensure compliance with
        applicable regulations over filing and review of financial disclosure forms.
2.	 TSA:
    a.	 Develop formalized, documented, policies and procedures to ensure systems are properly
        evaluated for basics requirements by the appropriate offices and levels of management prior to
        implementation.
    b.	 Develop policies and procedures, including monitoring and training for employees both inside and
        outside the TSA OFM on the importance to maintain accurate, valid supporting documentation,
        available for audit.
3.	 FEMA:
    a.	 Complete the efforts underway to ensure that formal policies and procedures are reviewed and
        certified on a biennial basis in accordance with FEMA Directive No. 112-1;
    b.	 Complete development and implementation of procedures to track compliance with and monitor
        the completion of the annual and new hire ethics training requirements; and
    c.	 Review, revise as needed, and implement policies and procedures to properly initiate, process, and
        track background investigations and maintain related documentation.
4.	 ICE:
    a.	 Develop and implement policies and procedures to bolster the communication between ICE OFM
        and program offices, and within the ICE OFM.
5.	 NPPD:
    a.	 Further the development of the accounting infrastructure through the implementation of

        standardized processes;

    b.	 Develop and implement policies and procedures to foster communication between NPPD’s OFM
        and the program offices, and;
    c.	 Develop and implement policies and procedures to facilitate communication between NPPD OFM
        and the accounting service provider.




                                                       II.3
Independent Auditors’ Report
Exhibit II – Significant Deficiencies


II-G Grants Management (FEMA only)
Background: FEMA is recognized as the primary grant-making
                                                                                          2012     2011      2010
component of DHS, managing multiple Federal disaster and non-
disaster grant programs.                                                     FEMA
Conditions: We noted the following internal control weaknesses,
                                                                              See page I.1 for table explanation
many of which are repeat findings, related to grants management.
FEMA:
    •	 Did not compile a complete list of grantees requiring single audits to fully comply with the Single
        Audit Act Amendments of 1996 (Single Audit Act) and related OMB Circular No. A-133, Audits of
        States, Local Governments, and Nonprofit Organizations (OMB Circular A-133) (see Comment
        IV-K, Single Audit Act Amendments of 1996).
    •	 Did not issue Management Decision Letters timely for OMB Circular A-133 audit reports available
        in the Federal Audit Clearinghouse.
    •	 Did not maintain accurate and timely documentation related to reviews performed of grantees’
        OMB Circular A-133 audit reports.
    •	 Did not maintain accurate and timely documentation related to site visits/desk reviews performed
        for grantees.
    •	 Did not consistently follow-up with grantees who have failed to submit quarterly financial reports
        timely.
    •	 Did not consistently maintain documentation necessary to support grant-related activities.
    •	 Did not consistently and effectively reconcile grantee quarterly financial reports to FEMA systems.
    •	 Did not have a process in place to create and track comprehensive lists of FEMA grants that are
        eligible for close-out, and has not completed the close-out process in a timely manner.
Cause/Effect: FEMA has not fully implemented policies and procedures over its grant program in order
ensure compliance with the Single Audit Act and OMB Circular A-133. In addition, FEMA has not
implemented effective monitoring procedures over certain grant activities and the maintenance of related
documentation. As a result, misreported grantee expenses may not be detected, which may impact the fair
presentation of FEMA’s grant accrual balances, undelivered orders, and expenses. Further, the diversity of
grant programs and systems within FEMA causes difficulty in assembling a comprehensive status of grants
eligible for close-out, which could result in untimely closure of grants and an overstatement of undelivered
orders.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit IV.
Recommendations: We recommend that FEMA:
1.	 Complete the implementation of policies and procedures to ensure full compliance with the Single
    Audit Act and the related OMB Circular No. A-133 related to receipt and review of grantees’ single
    audit reports;
2.	 Implement monitoring procedures over completing financial site visits/desk reviews; obtaining, timely
    reviewing and reconciling required quarterly grantee reports; and maintaining related documentation;
3.	 Develop and implement procedures to create and track comprehensive lists of FEMA grants that are
    eligible for close-out; and
4.	 Implement a continuous quality assurance and grants monitoring process to include review of
    corrective actions resulting from implementation of the recommendations in 1 – 3 above.




                                                    II.4
Independent Auditors’ Report
Exhibit II – Significant Deficiencies


II-H Custodial Revenue and Drawback (CBP Only)

Background: Customs and Border Protection (CBP) collects
                                                                                          2012     2011      2010
approximately $35.5 billion in annual import duties, taxes, and fees on
merchandise arriving in the United States from foreign countries              CBP
(identified below as the Entry Process). Receipts of import duties and
related refunds are presented in the statement of custodial activity in       See page I.1 for table explanation
the DHS financial statements.
Drawback is a remittance, in whole or in part, of duties, taxes, or fees previously paid by an importer.
Drawback typically occurs when the imported goods on which duties, taxes, or fees have been previously
paid, are subsequently exported from the United States or destroyed prior to entering the commerce of the
United States.
Our findings over the Entry Process include conditions identified in In-bond, Bonded Warehouse and
Foreign Trade Zones. In-bond entries occur when merchandise is transported through one port; however,
the merchandise does not officially enter U.S. commerce until it reaches the intended port of destination.
Bonded Warehouses (BW) are facilities, under the joint supervision of CBP and the Bonded Warehouse
Proprietor, used to store merchandise that has not made entry into the United States commerce. Foreign
Trade Zones (FTZ) are secured areas under CBP supervision that are used to manufacture goods that are
considered outside of the United States commerce for duty collection.
The conditions cited below have existed for several years. Management has stated that the time-frame for
remediation of these conditions is dependent on funding for IT system upgrades. In FY 2012 CBP
deployed a new system to replace the existing in-bond oversight functions, called the In-Bond Compliance
Module. This module was implemented in early September 2012 and is intended to create a more effective
in-bond monitoring system. However, for the majority of the period under audit, CBP was following
policies and procedures that led to ineffective and inefficient processes in in-bond and CBP was using a
system with limitations that restricted CBP’s ability to accurately monitor the in-bond process, both at the
Headquarters and port levels.
For the remaining conditions in Drawback, BW, and FTZ, a systems fix is currently unfunded. However,
improvements have been made in the controls surrounding BWs and FTZs, specifically at the BW and FTZ
facilities. Furthermore, in FY 2012 CBP continued its review efforts to reassess the Drawback process as a
whole.
Conditions: We noted the following internal control weaknesses related to custodial activities at CBP:
Related to Drawback:
    •	 The Automated Commercial System (ACS) lacks the controls necessary to prevent, or detect and
        correct excessive drawback claims. The programming logic in ACS does not link drawback claims
        to imports at a detail level. In addition, ACS does not have the capability to compare, verify, and
        track essential information on drawback claims to the related underlying consumption entries and
        export documentation upon which the drawback claim is based. Further, ACS has not been
        configured to restrict drawback claims to 99 percent of each entry summary.
    •	 Drawback review policies do not require drawback specialists to review all, or a statistically valid
        sample, of prior drawback claims against a selected import entry to determine whether, in the
        aggregate, an excessive amount was claimed against import entries.
Related to the Entry Process:
    •	 During the audit period, CBP was unable to determine the status of the in-bond shipments and
        lacked policies and procedures that required monitoring the results of in-bond audits and review of
        overdue air in-bonds. CBP did not formally analyze the rate and types of violations found, to
        determine the effectiveness of the in-bond program, and did not identify a projected total amount
        of uncollected duties and fees on in-bond merchandise that has physically entered U.S. commerce
        without formal entry to ensure there was not a potentially significant loss of revenue.



                                                    II.5
Independent Auditors’ Report
Exhibit II – Significant Deficiencies


    •	 Headquarters has developed national databases which contain an inventory of all BWs and FTZs;
        however, these databases were not designed to document the assessed risk of each BW or FTZ,
        scheduled compliance reviews, or the results of compliance reviews. CBP headquarters cannot
        verify the results of the compliance reviews to determine overall program effectiveness.
Cause/Effect: IT system functionality and outdated IT systems contribute to the weaknesses identified
above, in Comment I-B, Information Technology Controls and Financial System Functionality. For
example, under the system in place for the majority of FY 2012 CBP was unable to determine the status of
the in-bond shipments with the information available within ACS, and CBP did not have the ability to run
an oversight report to determine if ports completed all required audits. CBP could not perform a
comprehensive analysis to determine the overall compliance rate of the in-bond program. For drawback,
much of the process is manual until IT system functionality improvements are made, placing an added
burden on limited resources.
The inability to effectively and fully monitor the in-bond process and verify the arrival of in-bond
merchandise at the ports could lead to loss of revenue due to uncollected duties and fees on in-bond
merchandise that has physically entered U.S. commerce without formal entry.
CBP does not have the ability to perform a complete analysis over the effectiveness of the BW and FTZ
programs. CBP headquarters cannot effectively monitor the BW/FTZ program if a complete population of
all BWs and FTZs is not compiled.
Criteria: Presented in Index of Financial Reporting and Internal Control Criteria, after Exhibit IV.
Recommendations: We recommend that CBP:
1.	 Related to Drawback:
    a.	 Since the incorporation of drawback processing is not scheduled for the Automated Commercial
        Environment production, CBP should continue to pursue alternative compensating controls and
        measures that may ultimately identify the potential revenue loss exposure to CBP. These
        alternative internal controls over drawback claims may lead to the ability to compare, verify, and
        track essential information on drawback claims to the related underlying consumption entries and
        export documentation for which the drawback claim is based, and identify duplicate or excessive
        drawback claims;
    b.	 Develop and implement automated controls, where feasible, to prevent overpayment of a
        drawback claim; and
    c.	 Continue to analyze current policies and procedures performed at the Drawback Centers.
        Determine the benefit of current procedures and revise as necessary.
2. 	 Related to the Entry Process:
    a.	 With the new In-Bond Compliance Module implementation, certain monitoring reports no longer
        exist; therefore, CBP should ensure the new in-bond compliance system is properly functioning,
        timely address systemic issues that may arise, and provide additional policy and direction, if
        necessary;
    b.	 CBP headquarters should provide oversight and assistance to the field to ensure ports are
        following procedures and monitor and review the in-bond process to ensure a high in-bond
        compliance rate;
    c.	 Continue the implementation of a national database of BWs and FTZs and develop procedures to
        ensure completeness of the compliance review results submitted to CBP headquarters; and
    d.	 Increase CBP headquarters monitoring over the BW and FTZ compliance review program by
        developing a method to determine the program’s overall effectiveness.




                                                    II.6
Independent Auditors’ Report
Exhibit III – Compliance and Other Matters

All of the compliance and other matters described below are repeat conditions from FY 2011.

III-I Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
 DHS’ implementation of OMB Circular No. A-123, facilitates compliance with the FMFIA. The DHS
Financial Accountability Act of 2004 requires DHS to submit an annual audit opinion of internal control over
financial reporting. DHS has an OMB approved plan to correct existing material weaknesses in internal control,
before fully implementing the requirements of OMB Circular No. A-123 on all business processes.
Accordingly, the DHS Secretary’s Assurance Statement dated November 12, 2012, as presented in
Management’s Discussion and Analysis of the Department’s 2012 Annual Financial Report (AFR),
acknowledges the existence of material weaknesses and the limited scope assessment, and therefore provides
qualified assurance that internal control over financial reporting was operating effectively as of September 30,
2012, based on the testwork performed to date. Management’s findings are similar to the control deficiencies
we have described in Exhibits I and II.
While we noted the Department overall has taken positive steps toward full compliance with FMFIA, OMB
Circular No. A-123, and the DHS Financial Accountability Act of 2004, the Department has not fully
established effective systems, processes, policies, and procedures to ensure that internal controls are operating
effectively throughout the Department.
Recommendation: We recommend that the Department continue its corrective actions to address internal
control deficiencies, in order to ensure full compliance with FMFIA and its OMB Circular No. A-123 approved
plan in future years. We also recommend that DHS continue to follow and complete the actions defined in the
Internal Control Playbook, to ensure that audit recommendations are resolved timely and corrective action
plans addressing all DHS audit findings are developed and implemented together with appropriate supervisory
review in FY 2013.

III-J Federal Financial Management Improvement Act of 1996 (FFMIA)
FFMIA Section 803(a) requires that agency Federal financial management systems comply with (1) applicable
Federal accounting standards; (2) Federal financial management system requirements; and (3) the United States
Government Standard General Ledger (USSGL) at the transaction level. FFMIA emphasizes the need for
agencies to have systems that can generate timely, reliable, and useful information with which to make
informed decisions to ensure ongoing accountability.
While we noted the Department overall has taken positive steps toward full compliance with FFMIA, the Coast
Guard, U.S. Customs and Border Protection, the Federal Emergency Management Agency (FEMA), U.S.
Immigration and Customs Enforcement, and Transportation Security Administration did not fully comply with
at least one of the requirements of FFMIA. The reasons for noncompliance are reported in Exhibits I and II.
The Secretary of DHS has stated in the Secretary’s Assurance Statements dated November 14, 2012 that the
Department’s financial management systems do not substantially conform to government wide requirements
mandated by FFMIA. The Department’s remedial actions and related timeframes are also presented in the FY
2012 AFR.
An element within FFMIA, Federal system requirements is ensuring security over financial management
information. This element is addressed further in the Federal Information Security Management Act of
2002 (FISMA), which was enacted as part of the E-Government Act of 2002. FISMA requires the head of
each agency to be responsible for (1) providing information security protections commensurate with the
risk and magnitude of the harm resulting from unauthorized access, use, disclosure, disruption,
modification, or destruction of (i) information collected or maintained and (ii) information systems used or
operated; (2) complying with the requirements of the Act and related policies, procedures, standards, and
guidelines, including (i) information security standards under the United States Code, Title 40, Section
11331, and (ii) information security standards and guidelines for national security systems; and (3) ensuring
that information security management processes are integrated with agency strategic and operational
planning processes.




                                                     III.1
Independent Auditors’ Report
Exhibit III – Compliance and Other Matters

We also noted weaknesses in financial systems security, reported by us in Comment I-B, Information
Technology Controls and Financial System Functionality, which impact the Department’s ability to fully
comply with FISMA.
Recommendation: We recommend that DHS improve its financial management systems to ensure
compliance with the FFMIA, and implement the recommendations provided in Exhibits I and II in FY
2013.

III-K Single Audit Act Amendments of 1996 (Single Audit)
FEMA is the only DHS component that has a significant grant making operation. The Single Audit Act
Amendments of 1996, as implemented by OMB Circular No. A-133, Audits of States, Local Governments, and
Non-Profit Organizations, requires agencies awarding grants to monitor their grantees, ensure they receive
grantee reports timely, and follow-up on Single Audit findings to ensure that grantees take appropriate and
timely action. Although FEMA has implemented a system to monitor grantees and their audit findings, FEMA
did not fully comply with provisions in OMB Circular No. A-133 in FY 2012. We noted that FEMA’s
monitoring efforts were inconsistent and FEMA did not obtain and review all grantee Single Audit reports in a
timely manner.
Recommendation: We recommend that FEMA implement the recommendations in Comment II-G, Grants
Management.

III-L Anti-deficiency Act (ADA)
Various management reviews and OIG investigations are on-going within the Department and its
components that may identify ADA violations, as follows:
•	 The Coast Guard management continues to work to resolve two potential ADA violations relating to
    (1) funds used in advance of an approved apportionment from OMB and (2) the improper execution of
    the obligation and disbursement of funds for the lease of passenger vehicles.
•	 National Protection and Programs Directorate (NPPD) management has completed the review, initiated
    in FY 2007, over the classification and use of certain funds that resulted in an ADA violation. NPPD is
    in the process of responding to the OIG report and transmitting notifications of the violation.
•	 The Management Directorate has completed its investigation of whether rental charges at the Office of
    the Federal Coordinator for Gulf Coast Rebuilding (OFCGCR) incurred in FY 2009 were not properly
    committed or obligated and determined that the OFCGCR committed a violation in FY 2009. MGMT
    is in the process of developing the notification package.
•	 Intelligence and Analysis (I&A) is investigating the potential ADA violation due to a difference in
    calculation of apportionments while under continuing resolution in FY 2012.
Recommendation: We recommend that the Department, along with the OIG and the other components,
complete the internal reviews currently planned or being performed, and properly report the results in
compliance with the ADA, where necessary.




                                                   III.2
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings

     FY 2011 Control                                       Summary of Significant Changes in FY 2012                                            FY 2012 Control
 Deficiencies As Reported                                                                                                                   Deficiencies As Reported


Material Weaknesses:
 A – Financial Management    •   USCIS substantially corrected financial reporting deficiencies reported in previous years.                       Repeated
       and Reporting                                                                                                                             (Exhibit I-A)
   (USCG, TSA, USCIS)        •   The Coast Guard made progress by correcting financial reporting control deficiencies in accounts              (USCG, TSA, ICE)
                                 receivable, and improving their ability to provide accurate and timely information to DHS OFM for
                                 financial statement reporting. No new financial reporting deficiencies were identified at USCG in FY
                                 2012.
                             •   The Coast Guard’s most significant remaining financial reporting deficiencies include supporting non­
                                 standard adjustments, supporting certain year-end close-out balances, and reconciling
                                 intergovernmental transactions.
                             •   TSA is in an advanced stage of remediation of its financial reporting deficiencies. The remaining
                                 issues involve the need for incremental but important improvements to strengthen its internal controls
                                 over several financial reporting processes. Deficiencies previously reported in budgetary accounting are
                                 similar to, and therefore combined with, other financial reporting issues.
                             •   New financial reporting control weaknesses were identified at ICE related to year end close process,
                                 accounting for accrued payroll, ability to timely support transactions and identify potential accounting
                                 issues.
B – Information Technology   •   DHS components made progress in the remediation of IT findings we reported in FY 2011. We closed                Repeated
        Controls and             approximately 70 (46 percent) of our prior year IT findings. CBP, FEMA, and TSA made the most                  (Exhibit I-B)
     Financial Systems           progress in closing IT findings from the prior year.                                                        (USCG, CBP, FEMA,
       Functionality                                                                                                                            USCIS, ICE)
   (USCG, CBP, FEMA,         •   However, at end of FY 2012, over 175 IT findings existed, of which approximately 75 (43 percent)
       USCIS, ICE)               were repeat findings identified in prior years, and 100 (57 percent) were new findings. New findings
                                 resulted primarily from new IT systems and business processes that came within the scope of our audit
                                 this year, and were noted at all DHS components. CBP and FEMA had the greatest number of new
                                 findings.
                             •   Financial systems functionality continues to be a significant contributor to the IT material weakness,
                                 and is impairing DHS’s ability to install application controls, and leverage IT systems to improve cost
                                 effectiveness and provide reliable management information.


  C – Property, Plant, and   •   The Coast Guard continued to execute remediation efforts to address PP&E process and control                     Repeated
        Equipment                deficiencies; however, remediation efforts were not complete as of September 30, 2012. Consequently,            (Exhibit I-C)
(USCG, CBP, TSA, MGMT)           many of the control weaknesses reported in FY 2011 have been repeated in our FY 2012 report.                  (USCG, CBP, ICE)

                             •   The Coast Guard made progress in reconciling real property balances, and was able to fully assert to
                                 the reliability of approximately $3 billion of real property balances. We were able to complete audit
                                 procedures over real property as of September 30, 2012, narrowing our scope limitation to other PP&E

                                                                       IV.1
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings
      FY 2011 Control                                      Summary of Significant Changes in FY 2012                                               FY 2012 Control
  Deficiencies As Reported                                                                                                                     Deficiencies As Reported
                                 balances, such as personal property and construction in process. Real property represents
                                 approximately 25 percent of total Coast Guard property.
                             •   TSA substantially corrected PP&E control deficiencies reported in previous years.
                             •   CBP made modest progress in correcting PP&E control deficiencies by implementing policies and
                                 procedures in FY 2012, however, personnel did not always follow the new policies.
                             •   Management Directorate implemented new processes to correct some deficiencies, allowing for
                                 downgrade in severity of our findings in FY 2012.
                             •   New control weaknesses were identified at ICE primarily related to accounting for internal use
                                 software, and a lack of adequate policies and procedures.
   D – Environmental and     •   During FY 2012, the Coast Guard completed the final phases of a multi-year remediation plan to                   Partially Repeated
      Other Liabilities          inventory, value, and properly state environmental liabilities. As a result, the Coast Guard restated the           (Exhibit I-D)
         (USCG)                  FY 2011 financial statements, to present the correct environmental liability balance as of September 30,              (USCG)
                                 2011. An adjustment totaling $478 million was recorded to restate and reduce environmental
                                 liabilities.
                             •   Because the Coast Guard’s remediation procedures were not completed until late in FY 2012, many of
                                 process and control deficiencies related to environmental liabilities reported in FY 2011 continued to
                                 exist during of FY 2012, and have been repeated in our FY 2012 report.
  E – Budgetary Accounting   •   Budgetary accounting control deficiencies at USCG were repeated FY 2012.                                            Repeated
       (USCG, FEMA)                                                                                                                                 (Exhibit I-E)
                             •   FEMA continued to improve its processes and internal controls over the obligation and monitoring                (USCG, FEMA, ICE,
                                 process; however, some control deficiencies remain in FY 2012.                                                    MGMT, FLETC)
                             •   New budgetary control deficiencies were identified at ICE primarily in processes intended to validate
                                 obligations. In addition, controls over upward and downward adjustments were not effective at ICE.
                             •   New budgetary control deficiencies were identified at Management Directorate over accounting for
                                 undelivered orders and unfilled customer orders.
                             •   New budgetary control deficiencies were identified at FLETC over accounting for unfilled customer
                                 orders, at the beginning of the year, that were remediated by September 30, 2012.
                             •   The new budgetary control findings cited above are attributable primarily to the increase in the scope of
                                 our audit in FY 2012, to include the Statement of Budgetary Resources.

Significant Deficiencies:
  F –Entity Level Controls   •   FEMA continued to improve its entity level internal controls, however some control deficiencies                        Repeated
      (FEMA, TSA)                reported in FY 2010 remain.                                                                                          (Exhibit II-F)
                                                                                                                                             (Ethics Division, TSA, FEMA,
                             •   TSA continued to make progress in remediating entity level control deficiencies, however further                      ICE, NPPD)
                                 improvement is needed to fully correct all conditions.


                                                                       IV.2
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings
     FY 2011 Control                                         Summary of Significant Changes in FY 2012                                            FY 2012 Control
 Deficiencies As Reported                                                                                                                     Deficiencies As Reported
                                •   Throughout the Department and within the Ethics Division, we noted pervasive control weaknesses
                                    over administration of financial disclosure process for Department employees and executives, as
                                    mandated by regulation. We noted deficiencies related to this process in every component selected for
                                    testwork.
                                •   New higher-level control weaknesses involving communications, contractor oversight, annual risk
                                    assessment processes, and personnel training were noted at ICE.
                                •   New higher-level control weakness, were identified at NPPD, primarily related to communications to /
                                    from their service provider (ICE) and the DHS Office of Financial Management.

     G – Fund Balance           •   The Coast Guard substantially corrected fund balance with Treasury control deficiencies reported in              Corrected
      with Treasury                 previous years.
         (USCG)

         H – Grants             •   Grant accounting control deficiencies identified at FEMA in previous years were substantially repeated           Repeated
          (FEMA)                    FY 2012.                                                                                                       (Exhibit II-G)
                                                                                                                                                     (FEMA)

   I – Custodial Revenue        •   Deficiencies related to custodial revenue – entry and drawback were repeated in FY 2012.                         Repeated
           (CBP)                                                                                                                                   (Exhibit II-H)
                                                                                                                                                      (CBP)

Compliance and Other Matters:
   I – Federal Managers’        •   The Department overall has taken positive steps toward full compliance with FMFIA, OMB Circular                 Repeated
  Financial Integrity Act of        No. A-123, and the DHS Financial Accountability Act of 2004. However, the Department has not fully            (Exhibit IV – I)
            1982                    established effective systems, processes, policies, and procedures to ensure that internal controls are
                                    operating effectively throughout the Department.

  J – Federal Financial         •   The Department overall has taken positive steps toward full compliance with FFMIA. The USCG,                    Repeated
 Management Improvement             CBP, FEMA, ICE, and TSA did not fully comply with at least one of the requirements of FFMIA. The              (Exhibit IV – J)
       Act of 1996                  reasons for noncompliance are reported in Exhibits I and II.
   K – Single Audit Act         •   FEMA did not fully comply with provisions in OMB Circular No. A-133 in FY 2012.                                  Repeated
   Amendments of 1996                                                                                                                             (Exhibit IV – K)
   L – Chief Financial          •   DHS was compliant with the Chief Financial Officers Act in FY 2012, by completing a full-scope                   Corrected
   Officers Act of 1990             financial statement audit.

  M – Anti-deficiency Act       •   Various management reviews and OIG investigations are on-going within the Department and its                     Repeated
                                    components that may identify ADA violations.                                                                  (Exhibit IV – L)




                                                                         IV.3
Independent Auditors’ Report
Exhibit IV – Status of Prior Year Findings
     FY 2011 Control                                     Summary of Significant Changes in FY 2012                                          FY 2012 Control
 Deficiencies As Reported                                                                                                               Deficiencies As Reported
     N – Government         •   DHS completed the Quadrennial Homeland Security Review (QHSR) and released and updated                         Corrected
 Performance and Results        strategic plan in FY 2012. In addition, DHS has presented its net cost of operations by major program
       Act of 1993              that relates to major goals described in the strategic plan. DHS’ Statement of Net Cost and related
                                disclosures for FY 2012 are now in compliance with OMB Circular A-136, Financial Reporting
                                Requirements.




                                                                     IV.4
Department of Homeland Security
Index of Financial Reporting and Internal Control Criteria
(Listed Alphabetically by Criteria Source)

 Criteria                                       Reference                                      Report Exhibit

 Bonded Warehouse Manual for Customs and
 Border Protection Officers and Bonded
                                                Section 1.1                                    II-H
 Warehouse Proprietors (HB 3500-11, January
 2012)
 CBP Directive 5320-028D, Commitment,
 Obligation, and Expenditure Procedures for     Section 7.5.1                                  I-C
 Goods and Services
 CBP Personal Property Management
                                                Chapter 8                                      I-C
 Handbook, HB 5200-13B
 CBP’s Real Property Inventory Procedures                                                      I-C
 Coast Guard Financial Reporting Management
                                                Sections 9.B, 9.C.4                            I-C
 Manual
 Coast Guard Intragovernmental Reimbursable
                                                Section D                                      I-E
 Agreement Procedural Handbook
 Coast Guard’s Standard Operating Procedure:
 Financial Reporting of Personal Property
                                                Section 3: Scope                               I-C
 Categorized as Stewardship (Heritage) Asset
 Footnoted, dated April 20, 2012
 Code of Federal Regulations, Title 5           Part 2634, 2638                                II-F
                                                § 19.4, § 191.51,
 Code of Federal Regulations, Title 19                                                         II-H
                                                § 18.2, § 18.6, § 18.8, § 146.3
 Compliance Review Handbook for Bonded
                                                                                               II-H
 Warehouses (HB 3500-09, December 2007)
 Compliance Review Handbook for Foreign
                                                                                               II-H
 Trade Zones (HB 3500-10, July 2008)
                                                Section 4, 34                                  I-E, II-F
 DHS Component Requirements Guide for
                                                Section 30, 22                                 I-A
 Financial Reporting
                                                Section 43                                     I-C
 DHS Financial Accountability Act, dated Oct.
                                                Section 4                                      I-A, II-F
 16, 2004
 DHS Management Directives System
                                                Section V                                      II-F
 MD Number: 0480.1
 DHS Instruction 121-01-007, DHS Personnel
                                                Chapter 2, Section E                           II-F
 Suitability and Security Program
 DHS Sensitive Systems Policy Directive
                                                Sections 3.7, 3.9, 3.15.1, and 4.1.1           II-F
 4300A v. 9.0.2, updated March 19, 2012
 Ethics in Government Act of 1978               Title I, various sections                      II-F
 Federal Financial Accounting And Auditing
 Technical Release 2: Determining Probable
                                                Sections 1 and 2                               I-D
 and Reasonably Estimable for Environmental
 Liabilities in the Federal Government
 Federal Financial Management Improvement
                                                Section 803                                    I-A, I-C, I-E
 Act of 1996
 Federal Managers’ Financial Integrity Act of
                                                Section 2                                      I-A, I-C, I-E, II-F
 1982
 FEMA Budget Procedures Memorandum 10­          Section 4
                                                                                               I-E
 02                                             Subsections (d), (g), (h), (j)
 FEMA OCFO SF-132/133, Reconciliation
 Process SOP                                    Sections VII and VIII                          I-E

                                                Control Activities                             I-A, I-D, I-E, II-G
 GAO’s Standards for Internal Control in the
 Federal Government                             Examples of Control Activities (Accurate and
                                                                                               I-E, II-G
                                                Timely Recording of Transactions and Events)



                                                    Index.1
Department of Homeland Security
Index of Financial Reporting and Internal Control Criteria
(Listed Alphabetically by Criteria Source)

 Criteria                                        Reference                                      Report Exhibit

                                                 Examples of Control Activities (Appropriate
                                                 Documentation of Transactions and Internal     I-A, I-D, I-E, II-G
                                                 Control)
                                                 Information and Communications                 I-C
                                                 Presentation of the Standards                  I-A, I-D
 GAO's Principles of Federal Appropriations
                                                 Chapter 7                                      I-E
 Law, Third Edition, Volume II
 Grants Programs Directorate, Financial
                                                 Section 3.1                                    II-G
 Monitoring Plan
 Memorandum: In-Bond Guidance, dated April
                                                                                                II-H
 7, 2010
 Mission Assignment Standard Operating
 Procedure 2600-007, Financial Reporting of                                                     I-E
 Mission Assignments, updated March 20, 2012
 National Institute of Standards and
 Technology (NIST) Special Publication (SP)
                                                 Appendix F, sections CM-1 and CM-3             II-F
 800-53, Recommended Security Controls for
 Federal Information Systems
 Office of Federal Financial Management,
                                                 Accounts Payable Process                       I-D
 Core Financial System Requirements
 Office of Field Operations, Cargo and
 Conveyance Security’s General Order
                                                                                                II-H
 Merchandise Procedures; In-Bond Oversight,
 August 24, 2011
 Office of Field Operations, Guide for In-Bond
                                                                                                II-H
 Cargo, Version 1.0, March 31, 2006
 OMB Bulletin No. 07-04, Audit Requirements
                                                 Compliance with FFMIA (footnote 16)            I-E
 for Federal Financial Statements
 OMB Circular No. A-11, Preparation,
                                                 Sections 20, 20.5 (a), 130.9
 Submission, and Execution of the Budget,                                                       I-E
                                                 Appendix B, Section 1
 August 2012
                                                 1. Purpose                                     I-A, II-F
                                                 3. Policy                                      I-C, I-E, II-H
                                                                                                I-A, I-C, I-E, II-F,
                                                 I. Introduction
                                                                                                II-H
 OMB Circular No. A-123, Management’s            II. Standards                                  I-A, I-E, II-F
 Responsibility for Internal Control, Revised
                                                 III. Integrated Internal Control Framework     I-E
                                                 IV. Assessing Internal Control                 II-H
                                                 Appendix A
                                                 Section III. Assessing Internal Control Over   I-A
                                                 Financial Reporting
 OMB Circular No. A-127, Financial               Section 6 (subpart K)
                                                                                                I-A
 Management Systems, Revised                     Section 8 (subpart C)
 Office of Management and Budget (OMB)
 Circular A-130, Management of Federal           3. Analysis                                    II-F
 Information Resources
 Office of Management and Budget (OMB)
 Circular No. A-133, Audits of States, Local
 Governments, and Non-Profit Organizations,
                                                 Subparts B, D                                  II-G
 Revised to show changes published in the
 Federal Register of June 27, 2003 and June
 26, 2007
 OMB Circular No. A-136, Financial
                                                 Section V.3                                    I-A
 Reporting Requirements, Revised


                                                     Index.2
Department of Homeland Security
Index of Financial Reporting and Internal Control Criteria
(Listed Alphabetically by Criteria Source)

 Criteria                                      Reference                                      Report Exhibit

 Single Audit Act Amendments of 1996           31 USC §§7502 and 7504                         II-G
 Statement of Federal Financial Accounting
 Standards (SFFAS) No. 1, Accounting for       Paragraph 77                                   I-E
 Selected Assets and Liabilities
 Statement of Federal Financial Accounting
 Standards (SFFAS) No. 5, Accounting for       Paragraph 19                                   I-D
 Liabilities of the Federal Government
 Statement of Federal Financial Accounting     Paragraph 13, 20, 26, 34, 35, 38, 39, 77, 84
                                                                                              I-C
 Standards (SFFAS) No. 6, Accounting for       End Note 8
 Property, Plant, and Equipment                Paragraph 85, 94                               I-D

 Statement of Federal Financial Accounting
 Standards (SFFAS) No. 7, Accounting for
 Revenue and Other Financing Sources and       Paragraph 78, 79                               I-E
 Concepts for Reconciling Budgetary and
 Financial Accounting
 Statement of Federal Financial Accounting
                                               Executive Summary (Paragraph 5)
 Standards (SFFAS) No. 10, Accounting For                                                     I-A, I-C
                                               Paragraphs 16, 20
 Internal Use Software
 Statement of Federal Financial Accounting
 Standards (SFFAS) No. 14, Amendments to       Paragraph 1                                    I-C
 Deferred Maintenance Reporting
 Statement of Federal Financial Accounting
 Standards (SFFAS) No. 21, Reporting
                                               Paragraph 10 & 11                              I-C
 Correction of Errors and Changes in
 Accounting Principles
 Statement of Federal Financial Accounting
 Standard (SFFAS) No. 23, Eliminating the
                                               Paragraphs 11, 12, 13                          I-C
 Category National Defense Property, Plant
 and Equipment,
 Statement of Federal Financial Accounting
                                               Summary paragraph
 Standards (SFFAS) No. 29, Heritage Assets                                                    I-C
                                               Paragraph 26
 and Stewardship Land
 Statement of Federal Financial Accounting
 Standards (SFFAS) No. 35, Estimating the
 Historical Cost of General Property, Plant,
                                               Paragraph 12                                   I-C
 and Equipment: Amending Statements of
 Federal Financial Accounting Standards 6
 and 23
 Statement of Federal Financial Accounting
 Standards No. 39: Subsequent Events:
 Codification of Accounting and Financial      Paragraph 8, 12, 13                            I-A
 Reporting Standards Contained in the AICPA
 Statements on Auditing Standards
 Treasury Financial Manual, Volume 1           Part 2, Chapter 4700
                                                                                              I-A
 T/L 684 Bulletin No. 2012-09                  Appendix 10
 US Code Title 31, Chapter 15                  Sections 1501, 1535, 1554                      I-E
 US Code Title 44, Chapter 31                  Section 3101                                   I-C, I-D
 US Code Title 44, Chapter 35                  Section 3544                                   II-F
 USSGL                                         Transaction A714                               I-E




                                                   Index.3
                                                                            l l.S. l)fp.rtmfnl ofllomfland   ~«uril)
                                                                            W .~hington.   1)('20528


                                                                   ,.
                                                          •
                                                           •
                                                           \1,       d
                                                                 ~D I"'·
                                                                           • Homeland
                                                                             Security
                                       November 14, 2012



MEMORANDUM FOR:              Charles K. Edwards
                             Acting Insyector General

FROM:                        ~~~
                              Chief F inancia~-6fficer

SUBJECT:                      Fiscal Year (FY) 2012 Financial and Internal Controls Audit


I am pleased to accept your audit report on the Department's Consolidated Financial Statements
and internal controls for FY 2012 and Consolidated Balance Sheet, related Consolidated
Statement of Custodial Activity, and internal controls for FY 20 1t. We agree with the
Independent Public Accountant's conclusions.

Although the report indicates that DHS still faces financial management challenges, the auditor
noted the Department's continuing progress in improving the quality and reliability of our
financial reporting. During FY 2012, our Components implemented corrective actions that
significantly improved key financial management and internal control areas. Thi s year's audit
opinion on all financial statements demonstrates that the Department is committed to being a
responsible steward of taxpayer dollars.

The FY 2012 audit results show that our corrective actions are working, and we are already
focusing our efforts on remediatjng the remaining issues as we prepare for an unqualified audit
opinion on a full-scope audit in FY 2013. I want to thank you for your efforts and the continued
dedication by your staff to work collaboratively in addressing our challenges. As we continue
our steadfast progress, I look forward to working with the Office oflnspector General and the
Independent Public Accountant.
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix A 
   Report Distribution  
    
   Department of Homeland Security      
    
   Secretary  
   Deputy Secretary 
   Chief of Staff    
   Deputy Chief of Staff 
   General Counsel 
   Executive Secretary 
   Director, GAO/OIG Liaison Office 
   Assistant Secretary for Office of Policy 
   Assistant Secretary for Office of Public Affairs 
   Assistant Secretary for Office of Legislative Affairs 
   Under Secretary for Management 
   Chief Financial Officer 
   Chief Information Officer 
   Chief Information Security Officer 
   Acting Chief Privacy Officer 
    
   Office of Management and Budget    
    
   Chief, Homeland Security Branch   
   DHS OIG Budget Examiner 
    
   Congress    
    
   Congressional Oversight and Appropriations Committees, as appropriate 




www.oig.dhs.gov                             2                               OIG-13-20
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
